<html>
<title> - REBUILDING AFGHANISTAN: OVERSIGHT OF DEFENSE DEPARTMENT INFRASTRUCTURE PROJECTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                        REBUILDING AFGHANISTAN:
        OVERSIGHT OF DEFENSE DEPARTMENT INFRASTRUCTURE PROJECTS

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2016

                               __________

                           Serial No. 114-108

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-443 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
      Art Arthur, Subcommittee on National Security Staff Director
                            Sang Yi, Counsel
                           Willie Marx, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 16, 2016...................................     1

                               WITNESSES

Mr. John Sopko, Special Inspector General for Afghanistan 
  Reconstruction
    Oral Statement...............................................     2
    Written Statement............................................     4
Ms. Christine S. Abizaid, Deputy Assistant Secretary of Defense 
  for Afghanistan, Pakistan, and Central Asia, U.S. Department of 
  Defense, Accompanied by Howard Strickley, Program Director, 
  U.S. Army Corps of Engineers, Transatlantic Division, U.S. 
  Department of Defense, and Randy Brown, Director, Air Force 
  Civil Engineering Center, U.S. Department of Defense
    Oral Statement...............................................    43
    Written Statement............................................    46

                                APPENDIX

Statement of Chairman Jason Chaffetz.............................    98
Opening Statement of ranking Member Elijah E. Cummings...........   103
Written Statement submitted by Rep. Gerald E. Connolly...........   111
March 2016 Special Inspector General for Afghanistan 
  Reconstruction 16-22 Inspection Report titled, ``Department of 
  Defense Reconstruction Projects: Summary of SIGAR Inspection 
  Reports Issued from July 2009 through September 2015,'' 
  Submitted by Chairman Chaffetz.................................   114

 
                        REBUILDING AFGHANISTAN:
        OVERSIGHT OF DEFENSE DEPARTMENT INFRASTRUCTURE PROJECTS

                              ----------                              


                       Wednesday, March 16, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Massie, DeSantis, Buck, Walker, Hice, 
Hurd, Palmer, Cummings, Maloney, Lynch, Cooper, Connolly, 
Kelly, Watson Coleman, Plaskett, Welch, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    And without objection, the chair is authorized to declare a 
recess at any time.
    We have an important hearing today, always good to be 
talking about this topic. We have had a number of hearings on 
this. We do appreciate all the panel members that are going to 
be here. I do have an opening statement, but in the essence of 
time, I am going to simply submit that for the record.
    Chairman Chaffetz. And I am sure Mr. Cummings has an 
opening statement that we will submit to the record as well.
    Chairman Chaffetz. The United States of America has put a 
lot of time, effort, money, and blood into making the world a 
better place, and there is a lot of good work that has gone on, 
but there is also something different we do in the United 
States, and that is we are self-critical. We go back, we look, 
and we determine what has gone right and what is not going so 
right. And so today, we are going to have such a discussion, 
and it will be a good, vibrant discussion.
    So I would like to actually recognize the panel and then we 
will swear you in and we will get right off to the statements.
    Mr. John Sopko is the Special Inspector General for Afghan 
Reconstruction. Ms. Christine Abizaid is the deputy assistant 
secretary of defense for Afghanistan, Pakistan, and Central 
Asia, the United States Department of Defense. It is my 
understanding that you will give the one opening statement on 
behalf of the Department of Defense and that the rest of the 
panel will all participate in answering of the questions.
    We also welcome Mr. Howard Strickley, programs director for 
the United States Army Corps of Engineers, Transatlantic 
Division at the United States Department of Defense; and Mr. 
Randy Brown, director of the Air Force Civil Engineering Center 
at the United States Department of Defense.
    We welcome you all. We thank you for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. If you will please rise and raise your 
right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. You may be seated. And let 
the record reflect that all witnesses answered in the 
affirmative.
    I think you all have experience here. In order to allow 
time for discussion, we would appreciate your limiting 
testimony to no more than 20 minutes, or 5, whatever suits you 
best. I am just trying to make sure that we are--based on some 
of our hearings, that would be record time. But we will give 
you great latitude here. We would love to hear proactively your 
perspective.
    Mr. Sopko, you are now recognized.

                       WITNESS STATEMENTS

                    STATEMENT OF JOHN SOPKO

    Mr. Sopko. Thank you very much. Chairman Chaffetz, Ranking 
Member Cummings, and members of the committee, it is a 
pleasure, as always, to testify before this committee and to 
testify about SIGAR's inspections of facilities and 
infrastructure built and renovated by the Department of Defense 
in Afghanistan. SIGAR has issued 37 inspection reports 
examining 45 DOD reconstruction projects in Afghanistan with a 
combined value of approximately $1.1 billion.
    Although these projects do not constitute a representative 
statistical sample of all DOD projects, they do provide us a 
valuable insight into the challenges facing reconstruction 
efforts in Afghanistan. And I would like to focus on five key 
takeaways from our work.
    First, my inspection team found that some of the projects 
were well-built and met contract requirements and technical 
specifications. However, most did not.
    Secondly, we at SIGAR understand that reconstruction is 
difficult in Afghanistan. We also recognize that DOD and its 
components have taken steps to improve the efficiency and 
effectiveness of reconstruction projects. For example, DOD has 
generally been responsive to the recommendations in our 
inspection reports and has implemented 79 of the 100 
recommendations we've made.
    Thirdly, despite these efforts, many of the projects we 
inspected had significant deficiencies caused in part by common 
and recurring problems such as unqualified contractors, poor 
workmanship, and inadequate oversight by DOD officials.
    Fourthly, despite these problems, many contractors were 
still paid the full contract amount and not held accountable 
for their shoddy workmanship.
    Fifth, we continue to be concerned--and I think this is an 
important point--we continue to be concerned about the Afghan 
Government's ability to sustain the numerous facilities DOD has 
built or transferred for it. Although we're not focusing on 
other agencies, we're also concerned about the buildings that 
USAID has built for the Afghan Government and transferred to 
it, as well as the State Department.
    Looking at just the base transfers alone, DOD has donated 
391 former U.S. military bases worth approximately $858 million 
to the Afghan Government since 2010. They all have to be 
maintained. The Afghan Government has proven itself unable to 
operate and maintain its facilities on a wide scale. For Afghan 
security forces facilities in particular, DOD is still spending 
millions of dollars each year in operation and maintenance 
services at many of them because the Afghans cannot do so 
themselves.
    In light of these concerns, I was troubled to learn during 
my most recent trip to Afghanistan that our ongoing inspection 
of the new Ministry of Interior headquarters complex in Kabul 
uncovered extensive renovations being made to the headquarters 
building after it was supposed to have been completed, 
including installing dropped ceilings, tearing out recently 
poured concrete floors, tearing out electrical fixtures, and 
then replacing some of those floors with marble flooring in 
certain VIP and VVIP offices.
    It appears DOD has contracted for these and other 
``enhancements'' which are, according to the Statement of Work, 
``to improve the aesthetics of the internal finishes.'' These 
enhancements are not only more costly and require more 
expertise to maintain but also replace features the Army Corps 
of Engineers originally constructed in accordance with DOD's 
own contingency construction standards issued in 2009.
    Examples like this, combined with the Afghan Government's 
existing inability to operate and maintain its facilities, 
means the U.S. taxpayer will continue to expend funds 
indefinitely to sustain some of the facilities DOD has built.
    And in conclusion, to enhance the administration and 
oversight of its reconstruction projects in Afghanistan, DOD 
should continue to improve its project planning and design 
process, guarantee contractors are qualified and capable, and 
conduct the oversight needed to ensure that facilities are 
built correctly and contracts are held accountable.
    DOD should also continue to work with the Afghan Government 
to enhance its ability to operate, maintain, and sustain its 
facilities.
    SIGAR will continue to work with DOD and Congress as it 
continues to oversee the critical work the United States and 
its coalition partners are undertaking, and we thank you for 
the opportunity to testify today about those efforts.
    [Prepared statement of Mr. Sopko follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    
    Chairman Chaffetz. Thank you, Mr. Sopko. And I appreciate 
the diligent work that you and your team do in a very, very 
difficult place.
    And, Ms. Abizaid, I can't thank enough the men and women 
who actually serve in the military, again, very difficult 
conditions at best. We know how difficult it is. But we would 
appreciate the Department of Defense's perspective, and so we 
will now recognize you for 5 minutes.

               STATEMENT OF CHRISTINE S. ABIZAID

    Ms. Abizaid. Thank you, Mr. Chairman.
    Chairman Chaffetz. Can you move that mic--just bring it 
right on down there.
    Ms. Abizaid. How's that?
    Chairman Chaffetz. Yes, much better.
    Ms. Abizaid. Is that ----
    Chairman Chaffetz. Thank you.
    Ms. Abizaid. Thank you, sir. Chairman Chaffetz, members of 
the committee, thank you for inviting me to discuss the 
Department of Defense infrastructure projects in Afghanistan 
and for your attention to our mission there.
    I'm honored to have the opportunity to update you, 
alongside my colleagues who are present here today. All of us 
take seriously our responsibility to be good stewards of 
taxpayer dollars.
    You have my longer statement for the record, so I will 
focus my remarks on a couple of key points this morning.
    Over the previous 14 plus years, U.S. forces have worked 
with our international partners to improve security and 
stability in Afghanistan. We are forever grateful to and honor 
the 2,236 U.S. service members who have lost their lives while 
serving in Afghanistan, the over 20,000 military personnel who 
have been wounded, and the thousands of families who have 
sacrificed for this important mission, a mission that is 
fundamentally about preventing Afghanistan from once again 
becoming a safe haven from which terrorists can plan attacks 
against the United States homeland, U.S. interests abroad, or 
our international partners.
    Currently, DOD is conducting two complementary missions in 
Afghanistan: a counterterrorism mission against the remnants of 
al Qaeda and other extremist groups that threaten the United 
States; and a NATO-led train, advise, and assist mission with 
Afghan National Defense and Security Forces, known as Resolute 
Support.
    The era characterized by large investments in 
infrastructure projects, which coincided primarily with the 
U.S. troop surge, largely concluded more than a year ago. At 
the height of our combat mission, annual appropriations for the 
Afghan Security Forces Fund (ASFF), the Commanders Emergency 
Response Program (CERP), and the Afghanistan Infrastructure 
Fund (AIF) reached about $12 billion. This fiscal year those 
appropriations are down. Congress appropriated $5 million for 
CERP and $3.7 billion for ASFF. One percent of this funding is 
currently allocated for infrastructure, and we have not 
requested any further funds for AIF since 2014.
    Now, over the last 10 years DOD completed over $9 billion 
in infrastructure projects for the Ministries of Defense and 
Interior and their forces, including more than 1,000 projects 
supporting basing requirements for the ANA, the Afghan National 
Army, and the Afghan National Police. Development of this 
basing footprint has been crucial to enabling the Afghan forces 
to assume full responsibility for the security of Afghanistan 
so that the United States and the coalition can end its combat 
mission.
    On a smaller scale, DOD also executed projects through AIF 
primarily to address the lack of electricity that is impeding 
Afghanistan's economic growth, and CERP, which local commanders 
use to address urgent humanitarian and reconstruction needs 
such as repairing village wells or building security walls 
around schools.
    And for each source of funds, the Department developed 
guidance on how projects were to be approved and managed. 
Generally, smaller-scale projects were approved in theater. In 
accordance with congressional requirements, many of the larger 
projects were approved at the highest levels of the Department 
and notified to the appropriate congressional oversight 
committees. Once approved, projects were managed by executing 
agencies in theater with oversight provided by various offices, 
working groups, and councils within the Department of Defense.
    Now, this is not to say that all projects were problem-
free. Afghanistan is a war-torn country with an active 
insurgency, a history of corruption, poor transportation 
infrastructure, and little production and manufacturing 
capacity. Infrastructure development in this environment is 
challenging, and we have learned many lessons over the last 14 
plus years.
    Now, as my colleagues can describe, we work closely with 
contractors to manage problems and control costs. We're also 
successfully using trained Afghan quality assurance personnel 
to conduct onsite inspections and tests at locations that U.S. 
personnel cannot regularly visit. I understand SIGAR does the 
same with its inspections in the current environment.
    Now, in some cases, projects have failed. For example, 
SIGAR recently published a report about an Afghan police 
training facility constructed in 2012 that cost nearly 
$500,000. The walls dissolved in the rain. That is simply 
unacceptable.
    We appreciate the efforts of the inspectors general to 
shine a light on these problems so we can take corrective 
action. We have worked closely with auditors on more than 500 
audit reports and oversight projects since 2008 and have taken 
action to improve the execution of our reconstruction efforts. 
In a recent compilation of SIGAR's past reports on 
infrastructure, SIGAR noted that DOD addressed 90 percent of 
its recommendations.
    Now, no one in DOD is satisfied with a failed project. It 
hurts the mission, it undermines the confidence in the 
Department, and it wastes taxpayer funds. Fortunately, failure 
is rare. Due to DOD personnel in theater who continue to work 
tirelessly and often at great personal risk, the vast majority 
of infrastructure projects were completed successfully and used 
as intended to the benefit of the Afghan people and to long-
term U.S. interests. Notwithstanding some mistakes, overall, 
I'd characterize it DOD's infrastructure programs, particularly 
those that have focused on Afghanistan's core security needs, 
as highly successful and critical to the Afghan Government's 
ability to provide security across Afghanistan.
    I do want to stress that we are committed to ensuring U.S. 
taxpayer funds are used efficiently and invested wisely. The 
American people have made a generous and important contribution 
to the ANDSF and the future of Afghanistan, and the support has 
been key in enabling the United States to step out of a large-
scale combat role as Afghans increasingly defend their country.
    In closing, I want to again thank the committee for this 
opportunity to discuss our efforts to develop necessary 
infrastructure in support of our mission and to ensure that we 
are doing so responsibly. Thank you very much, Mr. Chairman.
    [Prepared statement of Ms. Abizaid follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Chairman Chaffetz. Thank you. I will now recognize the 
gentleman from Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    To try to comprehend the scope of the spending that's gone 
on in the U.S. money, I think the inspector general had said--
was it $110 billion from 2002 to 2013? Is that defense money or 
is that all of the aid that has gone into Afghanistan?
    Mr. Sopko. That's all reconstruction money.
    Mr. Mica. So ----
    Mr. Sopko. DOD has the bulk of that.
    Mr. Mica. Okay.
    Ms. Abizaid. The DOD money is about $60 billion over that 
time period.
    Mr. Mica. So about half. I was told that the budget for the 
entire Afghan Government is about $5 billion a year. Is that 
right?
    Ms. Abizaid. I think that's generally accurate, sir.
    Mr. Mica. Yes. And then I'm also told that there's other 
money coming in. Is it NATO money or European money, aid money?
    Ms. Abizaid. So, sir, the ----
    Mr. Mica. On top of that?
    Ms. Abizaid. The budget for the Afghan National Security 
Force's ----
    Mr. Mica. Yes.
    Ms. Abizaid.--total is about $5 billion. There is 
international funds to the tune of about $1 billion that is 
coming in. The Afghan Government pays about $500 million and 
the United States ----
    Mr. Mica. So ----
    Ms. Abizaid.--pays the rest.
    Mr. Mica.--we are talking billions on top of billions, 
right? Was it you, sir, that told me--I am trying to remember 
who it was--that the Afghans did not have the ability to absorb 
or steal any more money?
    Mr. Sopko. Congressman, I don't know if I said they didn't 
have the capacity to steal ----
    Mr. Mica. Because I--well ----
    Mr. Sopko.--but I think they had the--it's the capacity to 
use ----
    Mr. Mica. I was told by a representative--I am pretty sure 
it was out of your office and I think we have it on the record 
because I went back and said did you say absorb or steal? 
Because I know when I went there I had been informed of, all 
the way up to the presidency, what money was being stolen. But 
is that still the case? They don't have the ability to absorb 
or misappropriate any more money?
    Mr. Sopko. Congressman, absorption is a problem. We spent a 
lot of money there, gave them a lot of money, and they're not 
able to spend it either.
    Mr. Mica. And then--okay.
    Mr. Sopko. Yes.
    Mr. Mica. Another thing, too, is I am told that the Taliban 
now are starting to control more areas, and I read where your 
area of being able to conduct oversight has shrunken, is that 
correct?
    Mr. Sopko. That is correct.
    Mr. Mica. So even where we have projects ongoing or we have 
had projects, you don't have the ability to go in and see what 
is going on, is that correct?
    Mr. Sopko. That's correct. And it's not just us, it's 
everybody in Afghanistan working for the U.S. Government.
    Mr. Mica. When I was there, I was taken to Helmand 
Province. I went to half a dozen provinces or whatever around 
the country, and I remember the troops telling me look at the 
school, Mr. Mica. The school they paid 5, 10 times. It is the 
joke of the community of how the United States got ripped off, 
and that is what you have seen in some of these projects, sir?
    Mr. Sopko. That is correct, sir.
    Mr. Mica. Okay. You report to both the Secretary of Defense 
and also the Secretary of State on what you have seen, the 
abuses, et cetera? Is that correct?
    Mr. Sopko. That's correct ----
    Mr. Mica. Okay.
    Mr. Sopko.--and Congress.
    Mr. Mica. Okay. And then I see that Mrs. Clinton was the 
Secretary of State from--well, until 2013, and you reported not 
only to the DOD Secretary but to her. Some of the biggest 
abuses were in USAID money that I saw. Is that under Secretary 
of State or is it under DOD?
    Mr. Sopko. USAID is a separate entity I think ----
    Mr. Mica. But is it under State or is it under DOD?
    Mr. Sopko. It's a separate entity. It's a--has an 
administrator ----
    Mr. Mica. So no one--you did not report to her about those 
abuses, the Secretary ----
    Mr. Sopko. Well ----
    Mr. Mica.--of State at the time?
    Mr. Sopko. Congressman, we file our reports with Secretary 
of State, Secretary ----
    Mr. Mica. So she has had ----
    Mr. Sopko.--of Defense ----
    Mr. Mica. She had those reports. And are they required to 
reply or they do reply? Now, you just told me you replied on 90 
percent or something. Do we have a record of what came out of 
State?
    Mr. Sopko. On all of our reports to go to State Department, 
we would ----
    Mr. Mica. Can you ----
    Mr. Sopko. We do. We do.
    Mr. Mica.--supply us with copies of the responses? Because 
it appears a lot of money was wasted and not attended to on 
some of these projects not only under DOD but under the State 
Department. And I want to see and have in the record the 
response from DOD and State and what steps were taken. Can you 
provide the committee with that?
    Mr. Sopko. We definitely can do that, sir.
    Mr. Mica. All right. And then lastly, Mr. Chairman, I am 
very concerned about idle assets. You know, our Federal 
Government should stop--I have always said should stop sitting 
on its assets, and we have assets over there that you have 
identified not only the ones you are spending money on that you 
describe and renovations that are unnecessary or unwarranted 
and costly but also assets that we have that are sitting idle 
that we have transferred over to them. And if you could give us 
a list of those for the record, I appreciate that, and yield 
back the balance of my time.
    Chairman Chaffetz. Thank you. I will now recognize the 
gentleman from Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank the 
witnesses here today. Mr. Sopko, good to see you again.
    I have got a couple of quick questions. Any of our panel 
members, have you been dealing at all with the Kunduz situation 
where we accidentally attacked that hospital in a firefight?
    Ms. Abizaid. Sir, I'm generally familiar with it. It is an 
investigation that's happening in the military chain of 
command.
    Mr. Lynch. Yes. So here is what I am worrying about. This 
is just the interplay between hospital construction and we are 
doing a bit of that. You know, the chairman and I have been to 
Afghanistan way too many times, and oftentimes, the hospitals 
look like every other building not only in Kabul but, you know, 
Kandahar and in Kunduz. And I was wondering, as we are doing 
this, it is not really reconstruction. We are doing 
construction. It says Afghan rebuilding or reconstruction, but 
in many cases there is nothing to reconstruct; we are 
constructing.
    And I am just wondering on the hospital construction piece, 
are we building in structural components that would clearly 
identify those as hospitals so we don't have that accident 
happen again? I realize that we have very unreliable power 
sources, so lighting and things like that that would be obvious 
to us in the United States, they don't have those resources 
there on a consistent basis. But it at least appears among some 
of the reports that the hospital was indistinguishable. I know 
the coordinates were provided, but visibly, visually I guess 
the hospital was indistinguishable from some of the adjacent 
buildings, and I am just wondering if we are curing that defect 
within our protocol for hospital construction.
    Ms. Abizaid. Sir, we haven't yet finalized the details of 
what the reconstruction of the building that was mistakenly 
struck will entail. I would say that I would fully expect that 
at the time that we do decide to reconstruct a clinic if that's 
in fact the case ----
    Mr. Lynch. Yes, I am not talking about that one. I am 
talking about we are doing a bunch of other hospitals, and so, 
obviously, that opportunity presents itself with every 
hospital. And I am just wondering--and we have got a bunch of 
them in the report today, a bunch of hospital and clinic 
reconstruction. Are we distinguishing these buildings from 
other buildings so this doesn't happen again? That is all I am 
asking.
    Ms. Abizaid. Sir, I will take that for the record.
    [The information follows:]
    Ms. Abizaid. I would say that I am not aware of significant 
DOD projects that are currently underway other than the rebuild 
in Kunduz that include hospitals. The ones that were--the 
clinics that were constructed in the past I'll need to check 
for the record to make sure that we did do due diligence on the 
distinguishing feature.
    Mr. Lynch. I know in Iraq, you know, your counterpart Mr. 
Sopko had, you know, the Red Cross or the Red Crescent on the 
roof of these, the helipads, things like that, that clearly 
identified the buildings were hospitals, and I am just 
wondering ----
    Mr. Sopko. Congressman, if I could add to what the 
assistant secretary said, and this is an issue I think Congress 
should address. DOD has been very good on having accurate 
geospatial coordinates for the buildings they've built. We have 
been publicly critical of USAID for having a rather sloppy and 
flippant attitude to geospatial.
    Mr. Lynch. Okay.
    Mr. Sopko. And we have issued--and I'm happy to provide to 
you--a number of critical letters to USAID administrators to 
make certain that geospatial coordinates are accurate.
    Mr. Lynch. Okay.
    Mr. Sopko. I don't know if you read about it. We did a 
survey. We found out some of the coordinates were in the 
Mediterranean ----
    Mr. Lynch. Yes.
    Mr. Sopko.--some were in Turkmenistan and elsewhere. I 
think you're onto a good point. I can't tell you about any ----
    Mr. Lynch. All right.
    Mr. Sopko.--crescent signals, but you need good geospatial 
coordinates.
    Mr. Lynch. Okay.
    Mr. Sopko. DOD has done a good job at that. AID has been 
less than ----
    Mr. Lynch. I just spent 4 minutes on my quick question, so 
let me just jump on the fact that these contractors are being 
paid in full, in the United States, of course, we have a 
different format where we get a performance bond and we hold 
that back, and if they don't perform properly, we cash in on 
that bond. We also do retention, 10 percent of the contract 
price. They don't get that until we go in there and reaffirm at 
the end that they have performed their contract. Are we doing 
any of that?
    Ms. Abizaid. My understanding is that, yes, we are in fact 
doing that. Let me turn it to my colleagues.
    Mr. Lynch. Thank you.
    Mr. Strickley. Yes, sir. We do use the same FAR procedures 
in Afghanistan as we use in the United States or elsewhere in 
the world. The difference is when we contract with these small 
Afghan firms, we're trying to build construction capacity in 
the country.
    Mr. Lynch. Right.
    Mr. Strickley. We're trying to help them learn how to do 
responsible construction management. And if we hold much money 
from them, they will financially fail. They just do not have 
the resources in their company to--for us to withhold much.
    Mr. Lynch. Okay. That is ----
    Mr. Strickley. So where we can, we do, but it's project-
dependent.
    Mr. Lynch. All right. Thank you very much. I see my time 
has expired. I yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Well, thank you, Mr. Chairman, and thank you 
for holding this hearing.
    The easiest thing in the world is to spend other people's 
money, and unfortunately, we have seen over and over and over 
and over again that there apparently are no fiscal 
conservatives at the Pentagon. They can say they are good 
stewards of the public's money, but actions speak much louder 
than words. And Mr. Sopko's 30-something reports have listed 
hundreds of examples of just ridiculous waste. I mean, I have 
got in front of me an NPR report with $770 million on aircraft 
for Afghanistan that the military can't use, a report that was 
in all kinds of papers, $34 million on a white elephant 
headquarters that will never be used.
    In fact, in the NPR report Mr. Sopko is quoted as saying 
``the joke in my office is we will eventually see a base where 
on one side of the base they are destroying it while on the 
other side they are building it, and then they will probably 
meet in the middle.'' It is really sad. One organization that 
looked at this found $17 billion in waste.
    There has been so much waste in Iraq and Afghanistan. I 
know that a few days ago I think a Senate committee got very 
upset about a hearing about $6 million spent on nine blond 
goats from Italy. Are you familiar with the blond goats, Mr. 
Sopko?
    Mr. Sopko. Yes, unfortunately, I am. And it was a program 
by the Task Force for Business Stabilization. It was basically 
an attempt to rebuild or build a cashmere market, and as far as 
we know, it was a failure. They did import goats. They sent a 
team actually to Mongolia to try to bring back Mongolian goat 
semen. We're still tracking that down.
    As far as we know--we talked to a subject matter expert who 
said they tried to do that they needed to be done in 20 years 
in a 2-year period, and it was a total failure. We will be 
issuing a report on that in more detail, but the problem is 
there were no metrics and what type of metrics they had they 
didn't even follow.
    Mr. Duncan. Well, it is just really sad, and the American 
people are disgusted about this. I represent a very pro-
military district, but I will tell you that I have been here a 
long time, and I voted for the first war in Iraq because I 
heard about Saddam Hussein's elite troops and how great a 
threat they were, and then I saw those same elite troops 
surrendering to CNN camera crews and empty tanks. So realized 
then the threat had been greatly exaggerated.
    So I became very skeptical about the second Iraq war, and 
so they called me down to a little room at the White house with 
Condoleezza Rice and George Tenet, the head of the CIA. 
Lawrence Lindsey, the President's economic advisor had said 
that day or the day before that a war with Iraq would cost us 
$200 billion. He was fired. I asked about that. Condoleezza 
Rice said, oh, no, it wouldn't cost us anything like that. It 
will be $50 or $60 billion and we get some of that back from 
our allies.
    My point is all of these actions in Iraq and Afghanistan, 
there has been so much waste, it is just unbelievable, and yet 
we are still doing it after 15 years. And this estimate of $50 
or $60 billion by Condoleezza Rice and then we end up spending 
trillions. And it is just really, really sad.
    I end up voting against the second war in Iraq, and it was 
probably the most unpopular vote I have ever done for 3 or 4 
years, but what was the most unpopular vote has, over the 
years, turned into the most popular vote I have ever done 
because the American people are just fed up with this waste, 
and they are just feeling like we are long past the time when 
we need to stop trying to run the whole world and we start 
putting our own people in our own country first once again.
    And I just want to say again, Mr. Sopko, I am very grateful 
and thankful for the work that you have done over there 
pointing out this so hopefully we won't keep doing these types 
of things in the future.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I will now recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Mr. Lynch actually was starting a line of questioning I was 
interested in, so I would like to just yield to him.
    Mr. Lynch. I thank the gentlelady for yielding. I 
appreciate that.
    Mr. Sopko, I want to talk about Afghan defense force 
training. There are a lot of reports both in the press and from 
your office that the reliability of the data that we are 
getting from the Afghan Government relative to the amount of 
security forces they have on hand, especially in Helmand and 
Kandahar Provinces are not reliable. There is one report that 
says that up to 40 percent of the people we are paying in the 
Afghan defense forces are ghost employees; they do not exist. 
And so the commanders on the ground there are basically taking 
that money for themselves. There aren't really people there to 
be paid. And I just wonder if your own investigation supports 
that premise.
    Mr. Sopko. That figure I believe of 40 percent was quoted 
by, I believe, a parliamentarian, an Afghan parliamentarian or 
a provincial director I think down in Helmand Province, so we 
have not been able to corroborate that.
    The concern we have is we've seen ghost schools, we've seen 
ghost teachers, we've seen ghost clinics, ghost doctors, ghost 
civil servants, and we have heard of ghost soldiers. We 
actually heard part of the problem in Helmand and part of the 
problem in Kunduz were the units may not have been as fulsome 
as we expected. Our concern is we don't really have the 
capability of verifying that anymore because we don't have the 
troops underground, we don't have the people. We're using 
anecdotal information. And that is a concern I think we all 
have, particularly based upon the history in Afghanistan.
    And our concerns have been confirmed by the Ghani 
government. They've done a number of studies at least on the 
teachers and the clinics, and they're finding the same things 
that we are finding. But so far we haven't been able to do 
that.
    Mr. Lynch. Now, Ms. Abizaid, do you have anything on that?
    Ms. Abizaid. Yes, sir, I'd just like to respond briefly. I 
fully acknowledge that there are reports of ghost soldiers and 
sort of the volume of ghost soldier--the ghost soldier problem 
is something that we desperately want to get our arms around. I 
think the 40 percent figure is actually overrated, but, sir --
--
    Mr. Lynch. Let me just ----
    Ms. Abizaid.--we are ----
    Mr. Lynch. Let me just suggest something.
    Ms. Abizaid. Yes, sir.
    Mr. Lynch. Okay. We don't have to count every single 
soldier, but, look, just take a unit down in Helmand Province 
or in Kandahar or Nangarhar, whatever we want to do, and just 
do some samples. We have got payroll requests, and, you are 
right, we don't have the resources anymore to do this, you 
know, full-spectrum analysis of what they are doing, but you 
can certainly pick two or three units where we are getting 
requests for funding and then fly in there on payday and see 
who picks up their checks, who is picking up their pay. And all 
you need to do is do two or three of those and we will have a 
good sample of what is going on and we might nip that in the 
bud if they know we are going to do that on occasion.
    Ms. Abizaid. Yes, sir. And we'll take that back to the 
field.
    I did want to say that we are instituting new systems and 
processes to increase the accountability and our visibility 
into the soldiers that are getting paid through an integrated 
pay-and-personnel system and through the issuance of biometric 
ID cards for the Afghan National Army. These are really 
important systems to address the kind of accountability that 
we're talking about, make sure the people that are supposed to 
be getting paid are getting paid.
    And for--you know, to the example that you raised about 
increasing our visibility into specific units, we actually have 
pretty good visibility now into the units in Helmand and the 
kind of roles that they are keeping, and we have noted a 
significant degree of absence from rolls, attrition rates that 
are higher than we would have expected. Our engagement with the 
Afghan National Security Forces and the Ministries of Defense 
and Interior have enabled greater insight as we work to rebuild 
and reconstitute that force in Helmand that is in the midst of 
a fight.
    Mr. Lynch. Okay. Mr. Sopko, what do you think we should 
look at? Members of Congress will be going over to Afghanistan 
fairly soon. Any areas that you think we should look at more 
closely while we are there?
    Mr. Sopko. Security is number one. Verify to yourself as 
best as you can that the ANDSF has the capabilities, the Afghan 
security forces have those capabilities. The second thing, 
Congressman Lynch, is get outside of the embassy, get outside 
of the command structure and talk to some of the people, talk 
to some of the soldiers privately, talk to some of the people 
in the NGO community privately and to get their assessment. 
Every time I go there, I try to do that. Every time I go there, 
I try to meet with Afghan soldiers ----
    Mr. Lynch. And so do we. I have to give the chairman great 
credit. We get outside the wire every time we go.
    Mr. Sopko. Then you get the true picture. You don't get the 
happy talk ----
    Mr. Lynch. Yes.
    Mr. Sopko.--that you'll find in the embassy.
    And the other thing is, Congressman, I've been going there 
now 4 years. Every time I go, I'm told we're winning and every 
time I go I can see less of the country.
    Mr. Lynch. Yes.
    Mr. Sopko. It's so bad now I can't even drive from the 
airport, and no American civilian can drive from the airport to 
the embassy. We have to fly.
    Mr. Lynch. Right.
    Mr. Sopko. Last time I was there, I wanted to go across the 
street to do an inquiry, and I was told I was going to have to 
helo across the street ----
    Mr. Lynch. Yes.
    Mr. Sopko.--at the cost of $60,000. Now, if that's winning, 
what is losing ----
    Mr. Lynch. Yes.
    Mr. Sopko.--in Afghanistan?
    Mr. Lynch. Well, I would just in closing that if they are 
advising you not to drive from the airport the embassy, you 
should not drive. We have done that drive many times. That is 
not a good situation, so you continue to fly, sir. Thank you. I 
yield back.
    Chairman Chaffetz. I thank the gentleman.
    I would now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here.
    Mr. Sopko, for the past two Congresses, as you know, the 
House has passed multiple amendments to limit funding or reduce 
funding for the Afghanistan Infrastructure Fund, some of my 
amendments as well. Unfortunately, these bipartisan amendments 
don't get through and into the spending packages because of the 
insistence by DOD that additional funding sources are needed to 
finish the projects.
    I understand that we look to our commanders in the field. 
We want their guidance. We want to know what they think is 
necessary to finish the important job that they are doing, but 
should DOD also fully analyze the costs of particular projects 
and whether the Afghans will be able to maintain these projects 
before we allocate additional resources?
    Mr. Sopko. I agree wholeheartedly with that. They should.
    Mr. Walberg. That is just expected.
    Ms. Abizaid?
    Ms. Abizaid. Sir, with respect to Afghanistan 
Infrastructure Funds, I would note that this--most of the DOD 
funds associated with that, first, we are no longer requesting 
funds and haven't since 2014. We do want some funds to be able 
to complete ongoing projects. Those projects are being turned 
over to a self-sufficient Afghan entity known as DABS, which 
has actually been quite successful in generating revenues and 
actually being able to sustain many of the projects that we've 
undertaken in coordination with ----
    Mr. Walberg. Do you anticipate asking for additional 
reallocated funds for these projects?
    Ms. Abizaid. Not at this time. We are trying to use 
portions of ASIF to finish out the projects.
    Mr. Walberg. You are confident you have enough funding?
    Ms. Abizaid. Once the projects are complete, we do not 
expect any additional funds.
    Mr. Walberg. Mr. Sopko, as a general matter, did DOD 
conduct any risk-based analysis or feasibility studies before 
undertaking any of the construction projects that SIGAR 
inspected?
    Mr. Sopko. I am not aware of that. I'm not saying they 
didn't. I don't think they did, but I'm not absolutely certain. 
I would have to ----
    Mr. Walberg. Ms. Abizaid, could you answer that? Did any 
feasibility studies to deal with the taxpayer funds?
    Ms. Abizaid. Let me deferred to my colleagues in the 
engineering.
    Mr. Strickley. I can give you an example, sir, of an AIF 
project ----
    Chairman Chaffetz. You can move the microphone right up 
under your--there we go.
    Mr. Strickley. Yes, thank you. I can give you an example of 
a project that we started to do in Helmand Province with AIF 
funding at the Dahla Dam that would have been about $150 
million, $175 million project. And as we got further into the 
design, we eventually canceled the project because we did not 
think we would be able to execute it in a responsible fashion.
    It's an existing dam. We were going to increase its 
capacity, and we were concerned because of a security situation 
in that region that we--once we started construction, we 
might--or our contractor might be forced off the site, and that 
would have been a catastrophic situation.
    Mr. Walberg. Has this then produced additional effort to do 
feasibility studies and risk analysis before you even begin the 
engineering and the expensive process?
    Mr. Strickley. Yes, sir. I think we do, especially on those 
large AIF infrastructure projects. We routinely did analysis of 
the ability to execute the project. So most of them we're doing 
now are electrical transmission lines, and we think we are able 
to complete those in a reasonable time and a reasonable manner. 
And so we proceeded on ----
    Mr. Walberg. Well, you know, we would all, all I think feel 
better if we knew that the process began first with a risk 
analysis, feasibility study before we invested.
    Mr. Sopko, do you believe that the Afghan Government is 
prepared to take over full responsibility, operation, and 
maintenance of DOD-constructed facilities in Afghanistan?
    Mr. Sopko. If the question is are they capable, no, they 
are not capable at this point. They can't--they don't have the 
technical capability and they don't have the financial 
capability so we're going to have to support them.
    I mean, just to go back to a question one of your 
colleagues asked, Congressman, they raise approximately $2 
billion in revenue. The cost of the entire Afghan National 
Security Forces is $5 billion approximately. The cost of the 
rest of the government we've given them is another $4 billion, 
$3-$4 billion. So there's a delta there. They can raise $2 
billion. It's $8-$10 billion to support the government. That 
delta is provided by the U.S. taxpayer and the coalition 
taxpayers. So from a financial point of view, they cannot 
maintain.
    A good question to ask is how much money are we now giving 
to the Afghan Government to do O&M for all the buildings we 
just--we give them or build for them? And that's a significant 
amount. And remember, every dollar of O&M, overhead and 
maintenance that the Afghans spend is one less dollar they can 
spend for hiring a trooper, for buying bullets, for guns, or 
whatever. So we've got to realize we're stuck now of having 
built an Afghan infrastructure that the Afghans cannot afford.
    Mr. Walberg. I appreciate that. That is a question that we 
need to keep asking, especially in context of how long we 
continue to put ourselves in harm's way. That includes our 
taxpayer funding as well. So thank you.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Virginia, Mr. Connolly, 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Sopko, welcome back. I have to say, listening to this 
and reading your report, you know, there is a French expression 
plus ca change, plus c'est la meme chose, you know, the more 
things change, the more they stay the same, echoes of Vietnam, 
echoes of other large investments both by DOD and AID and the 
same old story, can't keep track of it, billions wasted, had 
to, you know, demolish it.
    I am looking at your report, for example. Your report, 
inter alia, on the inspection of six Afghan National Police 
district facilities in Helmand and Kandahar Provinces in 2010, 
one of the findings in that report was there was poor 
contractor performance to say the least. One of your report's 
recommendations was to ensure that identified construction 
deficiencies of future projects be paid for by the responsible 
contractor instead of the U.S. Government. By the way, was that 
recommendation accepted?
    Mr. Sopko. Congressman, I'd have to check on that.
    Mr. Connolly. All right. In 2015, your inspection report 
for the Afghan special police training centers dry fire range 
found that the regional contracting center failed to hold the 
contractor accountable for correcting deficiencies in 
construction before the contract warranty expired. The Afghan 
Government had to demolish the facility and rebuild it using 
Afghan money. Is that correct, Mr. Sopko?
    Mr. Sopko. That is correct, sir.
    Mr. Connolly. Help us understand how that we could arrive 
at that state of affairs. I mean, I listen to you talk about, 
you know, if that is winning, what would losing be? I have got 
to helicopter across the street. How in the world--if that is 
the security situation, how can we with a straight face say 
there is actually sufficient oversight on any investment we are 
making in Afghanistan?
    Mr. Sopko. It is difficult. I mean, I wish I could cite 
some French back to you, sir, but it's--there's probably a 
phrase of that. I mean, we are in a situation now where we have 
built too much too fast with too little oversight. And I feel 
like the detective that shows up and the body is not only gone 
from the murder scene, the chalk outline has now disappeared 
and I am trying to find somebody accountable.
    Now, the good thing is you have a good team over in 
Afghanistan with the CSTC-A and with Commander Campbell, a new 
commander there, who really are taking this seriously and 
they're trying to put conditions on it. The other good thing is 
the National Unity Government under President Ghani really 
wants to change things. So that is the positive side of this. 
And you have, under the Assistant Secretary Abizaid, a good 
team here that recognizes it.
    But we've got 15 years of real problems. We have 15 years 
of not applying the metrics, sir, that you and I had a long 
conversation about. We didn't apply metrics. And to this day I 
still have not heard back from the Secretary of Defense, 
Secretary of State, and USAID to give me their top 10 successes 
and why. Give me your successful programs and why. Give me your 
failures and why. If anything, right now, you need to rack and 
stack what worked and what didn't in Afghanistan ----
    Mr. Connolly. Absolutely.
    Mr. Sopko.--and nobody is able to say that to me.
    Mr. Connolly. You know, in terms of when in doubt, it seems 
to me--echoing Mr. Duncan's comments--I would rather pull the 
plug and not make the risk of an investment than to expend U.S. 
taxpayer dollars on a failing enterprise that has to be 
demolished. I mean, I don't know what good is done by that 
investment other than, I suppose, some people can pocket some 
money and some people can be on the payroll. But the damage 
done both to our prestige, you know, the symbolism of that 
failed investment and the taxpayer here to me outweighs the 
risk of making an investment.
    Ms. Abizaid, do you want to comment on that?
    Ms. Abizaid. Yes, sir. I appreciate your concerns, and I 
also appreciate Mr. Sopko acknowledging all that we have done, 
especially in recent years as the mission has changed to scope 
the mission appropriately going forward.
    I agree with you. I think that the melting walls on an 
Afghan firing range are--is an unacceptable situation to have 
found ourselves in. I would also say that that is one project 
but not representative of the thousands of projects that we've 
undertaken in Afghanistan. You know, some of the successes that 
I can cite are having built a basing structure for a new Afghan 
National Security Force from which they're fighting a live 
counterinsurgency right now and, you know, with some problems 
but also some successes.
    And so, you know, as we look to carry less and less burden 
ourselves both in dollars and American blood, we are trying to 
shift responsibility as much as possible to the Afghan 
Government. I think over the last year we've seen good success 
in that, and the program now is to find the right balance in 
terms of what we ask them to do, what we enable them to do, how 
we can build their own capacity, and what's going to fall to us 
to address our core national security interests.
    Mr. Connolly. I appreciate that, but let me just echo what 
Mr. Sopko said. If we are that confident that, yes, there are 
some failures we can point to put there are also some 
successes, then it ought not to be that difficult for Secretary 
Carter to respond to Mr. Sopko's request, which I certainly 
bless. Give us the top 10. You know, help us understand what 
lessons were learned from these successes. If you want to throw 
in some failures, that would be welcome, too, so that we are 
not repeating.
    And that is why I began by saying plus ca change. Nothing 
changes in decades of these kinds of investments. Do we ever 
learn from our experience in investing in, you know, very 
difficult circumstances where corruption is rampant, where 
government is inefficient, in the case of the previous 
government, frankly, of questionable intent in a lot of cases? 
And a lot hinges on that.
    And what is the price we have paid? A deteriorating 
security--a badly deteriorating security situation and a lot of 
wasted dollars, and that is not without consequence. If I were 
the Taliban, I would point to that. If you want to throw your 
lot in with those people, let me take you to this demolished 
police training facility or whatever. And so it is not without 
consequences beyond even dollars.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I am now going to recognize myself.
    Mr. Sopko, let's go to 60,000 feet here for a second. Give 
us the big numbers and dollars spent. And I want our colleagues 
and everybody to understand the numbers that we are going to 
talk about here have nothing to do with the war fight, okay? 
They don't have anything to do with our fighting, the men and 
women, feeding them, housing them, tanks, airplanes, whatever 
else we need to fight the war. This is the construction part of 
the aid that we are giving them. How much money have we spent 
in just Afghanistan? It is north of $100 billion, is it not?
    Mr. Sopko. Yes, Mr. Chairman. It's actually $113 billion.
    Chairman Chaffetz. So of the $113 billion that has been 
spent, how much if it has been appropriated but not yet 
allocated or not yet spent?
    Mr. Sopko. We have approximately--let me get that figure. I 
think it's $11.45 billion in the pipeline as of the end of 
2015, so $11 billion is in the pipeline.
    Chairman Chaffetz. So $11 billion in the pipeline. So to 
the three representatives from the Department of Defense, how 
much is enough? How much more money does it take from the 
United States taxpayers, from the men and women who actually do 
the jobs and make the money and pay their taxes, how much more 
money do we have to pour into Afghanistan for just the 
reconstruction? Or is this just going to go on in perpetuity 
with no end? How much more do you need?
    Ms. Abizaid. Sir, I think we are around a steady-state 
amount of about $3.4 billion, $3.5 billion. That might go up 
given some Afghan security ----
    Chairman Chaffetz. So if you have 4 billion more dollars, 
you are going to be fine?
    Ms. Abizaid. In the next year, sir, the cost to sustain the 
Afghan National Security Forces is about $3.4 billion, $3.5 
billion ----
    Chairman Chaffetz. Annually?
    Ms. Abizaid.--a year. Yes, sir.
    Chairman Chaffetz. That is just to continue to stand up the 
Afghan Government?
    Ms. Abizaid. That's ----
    Chairman Chaffetz. And that would come from this fund is 
what you want?
    Ms. Abizaid. That's right, sir.
    Chairman Chaffetz. So yesterday and tomorrow, we are having 
a hearing about Flint and water. I just don't understand how we 
pour $100 billion into Afghanistan and we have got people who 
can't turn on a faucet in Michigan and drink the water. And so 
we are in tough financial straits in our own country. We are 
$19 trillion, trillion in debt. And it sounds to me like we 
have got some $7 billion that is sitting on the sidelines that 
has already been appropriated. This is not new money. It has 
already been set aside that you don't need next year, correct? 
Is that accurate? If you have $11 billion that has been 
appropriated but not yet allocated and you need less than $4 
billion a year to stand up the Afghan Government, what are you 
doing with the other $8 billion?
    Ms. Abizaid. Sir, that is total appropriation. The part 
that is for DOD is the $3.5 billion. The $11 billion is total 
U.S. Government, and that is State, AID, and other agencies.
    Mr. Sopko. Chairman, the $3.45 billion is just supporting 
the Afghan military and police. You've still got to pay for the 
rest of the Afghan Government, okay, the teachers, the health 
clinics, the roads, and everything else.
    Chairman Chaffetz. How much does that cost?
    Mr. Sopko. Well, as I said before, that's about $8-$10 
billion total, subtract out the $5 billion, $4 billion for the 
police. So we're talking about $6 billion.
    Chairman Chaffetz. So help me with the math here. What is 
the annual expenditure the American Government needs to spend 
in--or that the military and the State Department and everybody 
else wants to spend every year?
    Mr. Sopko. I'd go back to ----
    Chairman Chaffetz. This is just the reconstruction, no 
fighting.
    Mr. Sopko. Reconstruction. I'd go back to the figure I told 
you. The Afghans raise about $2 billion in legal taxes ----
    Chairman Chaffetz. Right.
    Mr. Sopko.--legal taxes. They do illegally tax our 
contractors, but let's just say legal taxes. It costs about $4-
$5 billion for the military. So we've got a $3 billion delta.
    Chairman Chaffetz. Yes.
    Mr. Sopko. And then another $3-$4 billion above that. So 
it's $7 billion that somebody has to pay. Up to now, it's the 
U.S. taxpayers and the coalition per year. Per year I'm talking 
about.
    Chairman Chaffetz. And what percentage is the United States 
paying versus the rest of the world?
    Ms. Abizaid. Sir, for the Afghan National Security Forces 
we're talking about $1 billion from the rest of the world. The 
development aid I think--I would need to check with State, but 
I think they're shooting for $1 billion as well.
    Chairman Chaffetz. So, sorry, Mr. Sopko, help me get the 
top line number here. How much money are we putting in and how 
much is the rest of the world putting in, DOD plus State 
Department, USAID, all that?
    Mr. Sopko. It sounds like the rest of our coalition is 
giving about $2 billion and we're picking up the other $6-$7 
billion.
    Chairman Chaffetz. And how much--is there any extra money 
just floating around because, Mr. Sopko, last time we talked 
about, it was nearly $20 billion. We were doing more projects 
in Afghanistan than we ever were in the history of Afghanistan, 
correct?
    Mr. Sopko. Yes. I mean, actually, the amount of money we're 
spending on reconstruction in Afghanistan is more we're paying 
for reconstruction in any other country in the United States 
and I think we've ever done anywhere. I mean, it's more than we 
spent on the entire Marshall Plan for Europe after the war.
    Ms. Abizaid. Sir, so $60 billion total in terms of ASIF, 
the fund that supports the Afghan National Security and Defense 
Forces. They're--at its height it was about $10 billion a year 
appropriation. We have worked very hard as our mission has 
changed to move away from building up the ANDSF and the costly 
experiences associated with that and getting it to a better 
steady-state level at the $3.5 billion rate that we are 
currently at.
    As a means of increasing the efficiency of our investment 
in Afghanistan, we are looking to slope that cost of the force 
down. Security costs are very high both for the Afghan 
Government and for ourselves, and so one of the keys here is 
reducing violence levels in Afghanistan in a reasonable amount 
of time. And the ANDSF is going to ----
    Chairman Chaffetz. Well, We have been at it for 14 years, 
so where are we at?
    Ms. Abizaid. The Afghan Government has been in full lead 
for security responsibility over the last year. They had mixed 
success, but there was success, and they are--we expect them to 
continue to develop and improve your ----
    Chairman Chaffetz. You can't drive from the airport to the 
embassy. I have driven that. It is not a long distance. But you 
can't do that today. So are you telling me it is more secure or 
less secure?
    Ms. Abizaid. The international presence is certainly under 
threat in Afghanistan.
    Chairman Chaffetz. Yes, it is less ----
    Ms. Abizaid.--that is what ----
    Chairman Chaffetz.--secure.
    Ms. Abizaid.--we're trying to do to protect ourselves.
    Chairman Chaffetz. With indulgence here from the rest of 
the committee, I have a couple other questions. You know what, 
let me go back. I will have to ask a second round, but let me 
ask one other really quick question.
    How many people do we have in Afghanistan? I want to know 
how many DOD personnel and contractors do we have there, not 
just so-called boots on the ground but I think this boots on 
the ground is a facade because really when you go and you hire 
thousands or hundreds of--I don't know what the number is--of 
contractors, I don't know how those aren't human beings as 
well. How many people does the Department of Defense have on 
the ground in Afghanistan?
    Ms. Abizaid. Sir, I'll have to get back to you on the full 
number, but you're right, our contractor-to-boots-on-the-ground 
ratio is high. I think it's at about four to one, but I'll have 
to confirm that for the--and get it back to you for the record.
    Chairman Chaffetz. You have got a lot of staff sitting 
behind you, so if somebody could work on that number before the 
end of this hearing, that would be really helpful.
    Mr. Sopko. Mr. Chairman, I think I can give that number to 
you.
    Chairman Chaffetz. Sure.
    Mr. Sopko. Our best guesstimate--and again, it changes 
every day--is 39,609 total contractors. It's not just for DOD; 
it's also for AID and State. Fourteen thousand two hundred and 
twenty-two approximately are U.S. citizens or 36 percent. So 
we've got about 40,000 contractors.
    Chairman Chaffetz. And how many employees or--whether they 
be military, USAID, State Department?
    Mr. Sopko. I'll have to get back to you on that.
    Chairman Chaffetz. All right. A lot of staff back there.
    Ms. Abizaid. We're working on it.
    Chairman Chaffetz. Bust out those smartphones. We are going 
to come up with this number before we leave this hearing.
    Now, let's recognize the gentlewoman from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Today, SIGAR released a report looking back at 6 years of 
DOD reconstruction projects in Afghanistan. Reports such as 
these, as well as those by various inspectors general and GAO, 
are critical to our ability to learn lessons from problems 
today and improve our efforts in the future. In fact, although 
U.S. forces in Afghanistan were critical about parts of SIGAR's 
report in their comments, they highlighted, ``the value of this 
report lies in consolidating lessons which may benefit 
organizations charged with construction efforts in similar 
environments.
    Mr. Sopko, how else would you suggest DOD ensure lessons 
such as these are incorporated into their mission? And I have a 
cold. Excuse me.
    Mr. Sopko. I think the--I think what I recommended is take 
those lessons and apply them for every new contract, but I 
think the best thing to do right now is to do a thorough, 
complete assessment of the needs for any new construction, and 
that has been done in the past and I'm just saying we should do 
it now. It's probably a good time to do that again. General 
Dunford did that, and we actually commended him when he was 
commander of ASIF for saving close to half-a-billion dollars by 
canceling programs. So I think that's the way to do it. Now is 
the time to do an assessment, and not only DOD. AID and State 
should do it, too, and that's a way to incorporate that.
    Ms. Kelly. Okay. Thank you.
    Ms. Abizaid. Ma'am, can I just address ----
    Ms. Kelly. Sure.
    Ms. Abizaid. --through the help of inspectors general, 
including Mr. Sopko, we have learned quite a few lessons 
through--in our 14 plus years in Afghanistan. You know, some of 
the lessons that we have learned specifically about 
reconstruction and infrastructure projects include having a 
continual review of the projects at hand so if they are 
unneeded we can actually stop construction on those projects 
and return taxpayer money, working closely with the inspectors 
general to identify problems to take corrective action, as we 
have done in 90 percent of the recommendations that we heard 
from this report, including engineering experts on the front 
end of projects so we make sure that we're not only undertaking 
a project that's needed but building it right the first time 
around. That's been something that I think we've done 
increasingly well over time.
    And balance the need for urgency in a contingency war 
environment with the kind of analysis that's going to be 
appropriate in that environment. And so, you know, these are 
some of the lessons. There are many others that we've learned 
through cooperation with the inspector general.
    Ms. Kelly. You kind of answered--I was going to ask you 
questions about that, but I wanted to give Mr. Brown and Mr. 
Strickley a chance to describe how their experiences in Iraq 
have impacted contracting efforts in Afghanistan.
    Mr. Strickley. Yes, ma'am. I appreciate that question. So 
the Corps of Engineers has done an extensive lessons-learned 
study of our experiences in Iraq and now in Afghanistan, and we 
have just published a special study of the Corps of Engineers' 
experiences in both Iraq and Afghanistan, and the Army Center 
for Lessons Learned is adopting this, and it will be 
incorporated into Army engineer training in the future and it 
will become a part of--it is a part of how we organize 
ourselves and manage our work in Afghanistan now, and we will 
apply it to other contingency operations in the future.
    One of the things that Ms. Abizaid said that we--that is a 
huge lesson for us is that we were probably overly optimistic 
at the beginning in Afghanistan with how rapidly we could build 
things. And lots of things from the security situation to the 
border problems with Pakistan conspired against us. So we had 
good intentions when we awarded contracts, you know, 6, 7 years 
ago, and then the contractors, through no fault of their own 
and no lack of effort on their own, they just could not achieve 
the schedules that we set out for. So that was a huge lesson 
learned for us is ----
    Ms. Kelly. Can I add ----
    Mr. Strickley.--be a little more skeptical.
    Ms. Kelly. Being overly optimistic, how much money did that 
cost being overly optimistic?
    Mr. Strickley. I couldn't begin to estimate that. I don't 
know. In many cases what happened was the contractor was just 
unable to perform, so the buildings were not delivered when we 
wanted them to be delivered. So in some cases you see that 
facilities were completed and then never used. Well, that's 
part of the--what caused that. The Corps of Engineers simply 
was not able to do the--complete the construction in the time 
that we wanted to. Thank you.
    Mr. Brown. Yes, ma'am, I just would like to address, in 
addition to what the Corps has already mentioned, a couple 
other things. I think for us some of the lessons learned that 
were critical what is that we need to adapt the facilities to 
the local needs, and so looking at what is available in the 
local market that can be sustained over time.
    So sometimes we may look at bringing in a U.S. construction 
technique or design and put it into a country where maybe those 
materials aren't available in that country or its--it will be 
very difficult to sustain. So while we are sure that we used 
the right standards for safety, we've learned that we need to 
adjust what we do, especially with the finishes, to make sure 
that that's sustainable over time.
    Also, there's a code that we use, the Unified Facilities 
Code that all of DOD uses that we've recently just in late '13 
have released that. And that addresses the kinds of things that 
we need to consider when we go into contingency operations.
    For us within AFCEC we've also updated what we call our 
playbooks, which is our internal processes, so that both from a 
contingency perspective and work we do for military 
construction, we've bounced those lessons learned off each 
other so that we understand from a standards perspective what 
we should be doing and also what we've learned from these 
contingency operations to make sure that in the future, as we 
support the military, that we've captured those lessons 
learned, they're in our processes, and they'll be there when 
the next folks are called upon to do something like this.
    Ms. Kelly. Thank you. I know my time is up.
    Chairman Chaffetz. Thank you.
    I will now recognize the gentleman from Kentucky, Mr. 
Massie, for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Sopko, did you testified that $113 billion has been 
spent in Afghanistan since 2002?
    Mr. Sopko. For reconstruction only.
    Mr. Massie. On reconstruction. And this includes building 
the Afghan National Security Forces, to promoting good 
governance and engaging in counter narcotics?
    Mr. Sopko. That's correct, sir.
    Mr. Massie. All right.
    Mr. Sopko. Among other things, yes.
    Mr. Massie. So let's talk a little bit about the counter 
narcotics side of this. Has opiate production gone up or down 
since 2002 in Afghanistan?
    Mr. Sopko. It's one of the most popular crops. It's been a 
success, yes. Opium production is up.
    Mr. Massie. And what percent of the world's supply of non-
pharmaceutical opiates come from Afghanistan?
    Mr. Sopko. I think, sir, it's 80 to 90 percent.
    Mr. Massie. That is what I hear, too, from the United 
Nations Office of Drugs and Crime. They say about 90 percent of 
the world opiates, non-pharmaceutical opiates. So how much of 
this $113 billion have we spent on counter narcotics efforts 
there?
    Mr. Sopko. Approximately $8.4 billion. That's billion with 
a B.
    Mr. Massie. And how much has opiate production gone up 
since 2002 or since some benchmark that you can ----
    Mr. Sopko. I don't have the exact number, but I think 
they're producing well more now than they did during the 
Taliban years, and it has been the only successful export from 
Afghanistan for the 15 years we've been there.
    Mr. Massie. Ms. Abizaid, is this consistent with what you 
know about opiate production in Afghanistan?
    Ms. Abizaid. I'd need to check and get back to you on how 
numbers today compare to 2002. I know over the last year, 
mostly due to weather, there was a decrease in the poppy crop. 
I think that the weather patterns this year mean that that'll 
likely increase. But whether it's a full increase since 2002, 
I'd need to take that for the record, sir.
    Mr. Massie. So I have read reports that opiate production 
has as much as tripled since we invaded Afghanistan in that 
country. How much do you think it has gone up, Ms. Abizaid? Has 
it gone up or down?
    Ms. Abizaid. Sir, I'll need to take that for the record. I 
don't have an impression that it has tripled, but that is not 
something that I follow on a daily basis as part of my 
portfolio, so I'll check with those that do.
    Mr. Massie. So the counter narcotics effort is not within 
the DOD?
    Ms. Abizaid. Yes, sir, it is within the DOD ----
    Mr. Massie. How do you measure success if you don't know --
--
    Ms. Abizaid. Sir, the counter narcotics money that the 
Department of Defense has been in Afghanistan has primarily 
been to support the special mission wing, which is an Afghan 
aviation program. That's actually one of the most successful 
programs in Afghanistan. Now, whether that's affected the 
overall levels of opiates and poppy cultivation, I don't have 
those numbers for you. I will say that reporting standards have 
increased widely over the last, you know, 14 plus years in 
Afghanistan as more and more credible sources have come in. So 
whether in 2002 that were accurate figures are not is something 
I just can't speak to, sir.
    Mr. Massie. Would you testify today that opiate production 
has gone up since you started the counter narcotics effort or 
that it has gone down? This is a very simple ----
    Ms. Abizaid. I understand, sir. I don't--I'm sorry. I don't 
have the answer for you.
    Mr. Massie. You don't know if it has gone up or down?
    Ms. Abizaid. I am sorry, I do not.
    Mr. Massie. How can you account for--I mean, I trust you 
have had a lot of activity because you have spent $8 billion 
there, but what about progress?
    Ms. Abizaid. The progress that DOD has made in the use of 
its counter narcotics funds are represented by the success of 
the special mission wing, which is an Afghan aviation program. 
The total levels of opiate production, I will ask my staff to 
engage and get that answer and I will try and have that before 
the end of the hearing as well, sir.
    Mr. Sopko. Congressman, can I just add ----
    Mr. Massie. Yes, please, Mr. Sopko.
    Mr. Sopko. I think what you're focusing on is so important. 
We tend to focus on inputs. That's the amount of money we 
spend, and outputs, you know, we bought a whole bunch of 
airplanes and we have a nice special mission wing, but we never 
looked the issue that you're looking at. What is the outcome? 
The outcome, sir is that opium production is higher today. Two 
thousand and fourteen was the highest production year in 
Afghanistan. So if you look at any metrics for success or 
failure--and I've been doing counter narcotics--I did it for 
Sam Nunn when I was on his committee. For 15 years I looked at 
counter narcotics activities in the United States. You look at 
arrests, you look at seizures, you look at amount of crops 
underproduction, hectares under production, you look at the 
number of addicts.
    If you look at every one of those metrics, we have failed. 
The arrests are down, seizures are down, production is up, 
hectares under production is up, the amount of money being 
gained, and more important for Afghanistan, the amount of money 
going to the insurgency has increased since we've been there.
    So, sir, to you--and I'm just a simple country lawyer--I 
don't think we've succeeded in Afghanistan. I make this 
statement like I did before about winning. If this is winning, 
what is losing the drug war?
    Mr. Massie. Just to close out here and to summarize what I 
am hearing, the war on drugs in Afghanistan, to the extent 
there is a war on drugs, has been a failure. We have spent $8 
billion over there. Production is the highest it has ever been. 
And here in the United States we have a heroin epidemic. I 
think these two things might be related.
    And, you know, next week we are going to have a hearing in 
this exact committee to talk about the heroin epidemic. I think 
it is time to reevaluate our strategy and our tactics in the 
war on drugs in Afghanistan.
    With that, I yield back.
    Chairman Chaffetz. I thank the gentleman. He makes a good 
point. And I would also add to that that this is how the 
insurgency is funded, right, is it not? I mean, this is where 
they get their money, their assets to fight and kill and take 
down America, correct?
    Mr. Sopko. That is correct. It's one of the sources. There 
are other sources. And I would note, Congressman, Mr. Chairman, 
is that a lot of the activities we're seeing, the fighting 
we're seeing in Helmand and up in the Kunduz area is drug-
related. These are terrorists groups fighting over the drugs 
and these are local police and local Afghan officials fighting 
over drug control.
    Ashraf Ghani warned us before he was President if we didn't 
do something and if the Afghans didn't do something, his 
country would become a narco terrorist state. And I think his 
prediction is coming true.
    Mr. Massie. Department of Defense, you want to add anything 
to that?
    Ms. Abizaid. Sir, I'd only say that we absolutely 
acknowledge that narcotics trafficking is a major funder of the 
insurgency. Counterinsurgency operations that go against 
insurgent strongholds do so and try and address some of those 
smuggling routes, some of that poppy cultivation, but it is a 
serious problem and it's one that we are very focused on, which 
is why we funded the special mission wing to engage in both 
counterterrorism and counter narcotics missions.
    I will acknowledge and do have information from my staff 
that counter narcotics--that poppy cultivation has generally 
gone up over the last 10 years. We'll get more specifics for 
you, sir. And while it has fluctuated year by year, again, 
often weather-dependent, I would not claim that we have 
significantly degraded the kind of funding that comes from 
those illegal substances.
    Chairman Chaffetz. Thank you.
    I now recognize the gentlewoman from New York, Mrs. 
Maloney.
    Mrs. Maloney. This is one of the most depressing hearings I 
have ever sat through. It is just terrible what we are hearing. 
And I think at the very least you can start a policy that you 
don't build any more buildings unless you have proof that they 
can operate them and maintain them. That is ridiculous that you 
have to build a building and then operate and maintain it for 
additional cost. That is insanity to continue doing that. I 
don't see why we don't immediately stop that process.
    And Mr. Sopko's statement that he's trying to get a list of 
what works and what doesn't and can't even achieve that, I 
think Mr. Chairman or some of us should write a letter to 
support your efforts, and if they can't still give you that 
list, we should legislate it, put the force of law that they 
have got to give you this information. And it seems to be a 
lesson in mismanagement.
    And my first question is to Mr. Brown from DOD. And I would 
like you to briefly explain the difference between a cost plus 
fixed fee and a firm fixed price contract. And I note an IG 
report of the Afghan Ministry of Defense, the Air Force Civil 
Engineers Center awarded a $48 million cost plus fixed fee 
contract to construct the building by 2010, and it ended up 
after 14 contract modifications, the cost was more than double 
at $107 million. Is that right, Mr. Brown? It is almost 
unbelievable.
    Mr. Brown. Yes, it is.
    Mrs. Maloney. And then you go back with a firm fixed price 
and they are able to complete it on time ahead of schedule for 
$47 million. So just from that one example, it looks like we 
should be going with a firm fixed price contract and stop the 
cost plus fixed fee. But your comments on it, please, Mr. 
Brown.
    Mr. Brown. I'd be happy to. Yes, cost plus fixed fee is 
usually used when you have risks that you just don't feel that 
you can bound them properly, right, so if you can't guarantee 
what the material pipeline may look like. So it's a shared risk 
between those who hold the contract and those who you contract 
with.
    When we go into a firm fixed price contract, that is where 
we're much more comfortable that we can set a price and it can 
be delivered for that price, that there is appropriate risk 
being carried by both the government and by the contractor.
    I will say, as we looked back over the history of the work 
we did in Afghanistan, we saw early on--I think as respective 
to what was the status of the affairs early on--that we used a 
fair amount of cost plus fixed fee contracts early when we were 
early involved. But from about '11, '12 on, we switched most of 
our work to firm fixed price because at that point we felt we 
could better guarantee the price and hold the contractor to 
that.
    In the case of the headquarters, let me just kind of walk 
back through what happened there. That was a cost plus fixed 
fee ----
    Mrs. Maloney. Yes, I read that so ----
    Mr. Brown. Okay.
    Mrs. Maloney.--I just wanted to get to your comments.
    So I just would like to go to Mr. Sopko. You know, do you 
believe that one contract type is better than another? And do 
you believe that the cost overruns and other issues associated 
with this project could have been prevented by just using a 
firm fixed price contract?
    Mr. Sopko. Absolutely. I would never use a cost plus 
contract in Afghanistan. You're basically asking for the 
American taxpayer to end up getting fleeced, and that's what 
you had here. I mean, there is no risk. And I take umbrage with 
the colleague that somehow we're sharing risk in a cost plus 
contract. The only person sharing the risk is the U.S. 
taxpayer. The contractor doesn't have to do anything. He's 
going to get the additional funding, and that's what you see 
here, 5 additional years to do the contract and a cost overrun 
of hundreds of millions of dollars. So I would never use a 
cost-plus contract in a place like Afghanistan.
    Mrs. Maloney. Well, why don't we stop that policy right 
now?
    I would like to ask Mr. Sopko, what do you think we should 
do now with these out-of-control costs?
    Mr. Sopko. As I said before, I think we need to reassess 
what we've done up to now, and by ``we'' I mean not SIGAR. 
We're going to do our own lessons learned on this. I think that 
each agency has to do it, rack and stack what's worked, what 
hasn't, and what do we need to do in Afghanistan. But we have 
to prioritize.
    Now, we have talked about promising a decade of transition. 
That means at least for the next 10 years the billions of 
dollars that the chairman has been trying to figure out with us 
that we're going to spend, we've promised 10 more years of 
this. The other thing you have to consider if we stop funding 
the Afghan Government, it will collapse and the bad guys will 
take over.
    So we're between a rock and a hard spot, but you really 
need, from a policy point of view, make a decision and go 
forward on that. But I think we need to start by doing racking 
and stacking and prioritizing what the Afghans really need.
    Ms. Abizaid. Ma'am, with respect to that prioritization, I 
do think that we are engaged in that. If you look at the amount 
of money we are going to be spending on infrastructure projects 
in the next year, it's 1 percent of the total request, which 
the total request is already quite a bit lower than it was. And 
it is on those priority efforts that are about increasing 
Afghan National Security Force capability in ways that we don't 
have to it expand U.S. resources to make up for.
    So in particular, they have a fixed wing aircraft that 
needs infrastructure, storage for munitions. We're spending 
money on that. We're not spending money on building schools or 
large-scale new builds. We are mostly in a place where 95 
percent of the infrastructure build is over, and we are 
prioritizing our efforts to sustain and to have very clear 
objectives in what new projects we seek to undertake.
    Mrs. Maloney. Okay. My time is expired.
    Chairman Chaffetz. If the gentlewoman would yield, I wish 
what you said was true, but it is not because when we look at 
the American taxpayer dollars, you are a portion of it. Then, 
you go over to the USAID, you go to State Department, you go to 
the others, you start to quickly realize that all these other 
spends on building, you know, goat farms and other things like 
that, we are spending money on all those things.
    And if the Department of Defense was just focused on 
helping secure Afghanistan, I think that that would be a 
different equation, but it is not. And I will come back to it.
    But let's recognize the gentleman from Georgia, Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Sopko, you made, to me, a powerful statement. Earlier 
you said in regard to the reconstruction that we built too much 
too fast with too little oversight. And unfortunately, it 
appears that that is a nagging, negative principle that it 
seems as though, at least many feel the pain that that is a 
principle our entire government right now seems to embrace. At 
least many people feel that way.
    But within the context of that statement, we built too much 
too fast, too little oversight, how many infrastructure 
projects in Afghanistan are currently in development?
    Mr. Sopko. Congressman, I wouldn't have that number. I will 
try to find it. But the problem we have is--and this is 
something we've pointed out for a few years--we don't even know 
what we built in Afghanistan ----
    Mr. Hice. Okay.
    Mr. Sopko.--so I can't tell you how many are under ----
    Mr. Hice. That is just what I was saying. We don't know 
what we have built.
    Ms. Abizaid. Congressman ----
    Mr. Hice. We don't know what is under construction right 
now, we don't know what we have done ----
    Ms. Abizaid. Sir, we do know what's under construction now.
    Mr. Hice. Okay. What is under ----
    Ms. Abizaid. I mentioned the munitions storage facility for 
the A-29. We also have ----
    Mr. Hice. How many? I don't need the details, just how many 
projects?
    Ms. Abizaid. I would say it's a handful, sir. I can get the 
details for you on the specifics. But as I mentioned, it's 1 
percent of the planned budget, and we're not talking about very 
many new builds at all.
    Mr. Hice. Okay. Please, if you would get that to me, I 
would appreciate it.
    Mr. Hice. So it seems again that the overarching problem 
here is lack of oversight. Where there has been oversight--is 
it fair to say where there has been oversight, we have had a 
better outcome?
    Ms. Abizaid. That is absolutely fair to say, sir.
    Mr. Sopko. That's correct.
    Mr. Hice. Okay. So what are we doing to ensure 
accountability to the American taxpayer that there will be 
oversight on these current projects and future?
    Ms. Abizaid. So we have increased oversight over the years. 
I think that if you look at the scope of Mr. Sopko's most 
recent report, it's relating projects that were from 2009 and 
some current projects. I think you even see in that report the 
kind of improvement that we've done in terms of processes and 
procedures for oversight. There's oversight that happens in the 
field through CSTC-A. There's also oversight that happens in 
the Department.
    Mr. Hice. How many ----
    Ms. Abizaid. But my colleagues ----
    Mr. Hice.--of these things that you are describing, how 
long have those been in place?
    Ms. Abizaid. They have increased over time. For instance, 
in the Department we have an Afghanistan Resources and 
Oversight Council that is co-chaired by me, comptroller, and 
one of my colleagues from AT&L. That's been in place for since, 
I think, 2013. And we have to approve projects that are above a 
certain dollar amount to make sure that it's consistent with 
our policy ----
    Mr. Hice. Okay.
    Ms. Abizaid.--our strategy.
    Mr. Hice. All right. Excuse me for interrupting. I just 
have a couple more questions. So with that, I mean, time is 
going to be the test to confirm whether or not these new 
programs being implemented will provide the accountability 
needed.
    But of the projects that have already been built that 
failed to meet our requirements, did I hear correctly that 
those contractors were paid in full? I believe that was 
mentioned earlier.
    Ms. Abizaid. I don't ----
    Mr. Sopko. Many of them. I said that. That's what we've 
been ----
    Ms. Abizaid. Not all of them, sir.
    Mr. Hice. All right. Not all of them, but many of them were 
paid in full for inadequate jobs, so again, taxpayer dollars 
wasted. How many of those projects--both the ones that were 
completed properly and improperly, how many are currently 
occupied percentagewise or are they all occupied?
    Ms. Abizaid. So, sir, of the projects that were 
specifically for the MOI and MOD, which I think Mr. Sopko in 
his report listed 27 of them, 26 of those are currently 
occupied and currently being used by the Afghan National 
Security Forces. One of them was canceled actually by the 
Department of Defense and saving, I think, up to about $10 
million in taxpayer ----
    Mr. Hice. I thought I heard earlier that there were several 
buildings that were built that were not occupied. Again, part 
of the ``we built too much too fast.''
    Mr. Sopko. Oh, yes. And remember, the universe--we only 
looked at a few of these buildings. What you really need to do 
is ask the Department of Defense to tell you of all the 
buildings built they've ----
    Mr. Hice. Can I ask that ----
    Mr. Sopko.--how many are occupied ----
    Mr. Hice. Okay.
    Mr. Sopko.--how many are being used for the purpose that 
they ----
    Mr. Hice. Can I ask that we get that number?
    Ms. Abizaid. Yes, sir. We'll get that to you ----
    Mr. Hice. I mean, it is stunning to me that--amazing at 
least that we don't even know what all we have built.
    Ms. Abizaid. So, sir, I ----
    Mr. Hice. How can we know what is occupied if we don't even 
know what we have built?
    Ms. Abizaid. For those projects that we've built for the 
Afghan military, I think we do know and have good record of 
what was built. I think where there is less certainty is--are 
those projects that are--that were directed under the 
Commander's Emergency Response Program, which is an 
appropriation that's gone down over time and has been managed 
by individual units in the field, captains, colonels depending 
on the size of the unit to undertake immediate-need projects 
like building a well, like walls for a school.
    And so I think that our records on that go to the amount of 
appropriation that was given to a particular unit, not 
necessarily all specific projects. But we have good data on 
that and we'll certainly get it to you as a question for the 
record, sir.
    Mr. Hice. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I will now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much.
    Mr. Sopko, first of all, welcome back. It is good to see 
you again.
    One of the largest infrastructure projects in Afghanistan 
was the new Ministry of Defense headquarters, which has been 
dubbed a mini-Pentagon. This project cost about $200 million 
with a significant portion of that coming from U.S. taxpayers. 
In your report you say this project took almost 5 years longer 
to complete than anticipated and cost more than three times the 
original estimate. You found that one of the key reasons for 
this delay was security issues. In fact, there were multiple 
reports of suicide bomb attacks at or near the site during 
construction, is that correct?
    Mr. Sopko. That is correct, sir.
    Mr. Cummings. You indicated that the headquarters building 
is well-built but it has some issues that need to be assessed 
relating to its ability to withstand earthquakes. At the time 
of your report, you were still waiting for documents to close 
out these recommendations. Has the DOD provided you with the 
information you need to close out those recommendations?
    Mr. Sopko. Well, to close out the recommendations, but we 
never received the assessments that they did. We said they 
should do assessments, but we have not received those 
assessments prior to issuing that report. We still haven't 
received those assessments.
    Mr. Cummings. And do you have any idea when you might get 
them?
    Mr. Sopko. We have no idea.
    Mr. Cummings. Have you been pressing them for them?
    Mr. Sopko. We've asked repeatedly, but we couldn't hold the 
report any longer. We held it for a long time to get those 
assessments. We still have not gotten written assessments. Our 
concern is the assessments aren't in writing; they were oral. 
That's a concern we have maybe because we're suspicious, but we 
still haven't gotten written assessments.
    Mr. Cummings. Why would you be suspicious?
    Mr. Sopko. Oh, I've been doing this for 20-some years, sir. 
After a while, I get suspicious when I ask for something that's 
pretty simple to get and I don't get it.
    Mr. Cummings. Yes, we are very familiar with that concept.
    Mr. Sopko. Yes. Yes.
    Mr. Cummings. You also noted that as of January 7, 2016, 
the building was not fully occupied. Is that right?
    Mr. Sopko. That is correct.
    Mr. Cummings. Do you know if it is fully occupied now?
    Mr. Sopko. I don't know.
    Ms. Abizaid. Sir, it is.
    Mr. Cummings. It is?
    Ms. Abizaid. At 90 percent occupancy, I believe.
    Mr. Cummings. Ninety percent? As of when?
    Ms. Abizaid. That is the update I got from the field over 
the last 2 weeks, sir.
    Mr. Cummings. Thank you.
    So let me turn to Mr. Brown. The project was managed by the 
Air Force Civil Engineer Center. Mr. Brown, how did the 
security situation in Afghanistan impact the budget and 
construction costs of the headquarters building?
    Mr. Brown. Yes, sir. I'd say there were probably two 
contributing factors there. One was the security you mentioned 
with the general security around the area. And we saw that that 
impacted us both in dollars and in time. The other thing is the 
proximity of that facility to the presidential compound, and so 
we--when we would see that there would be delays and there were 
fairly extensive delays whenever the President would be moving, 
we would have to clear the work area of all the workers until 
the President--Afghanistan President was back in place or had 
left the compound. And so that cost us about 10 months and 
about ----
    Mr. Cummings. Whoa, whoa, whoa, the President moving around 
cost you 10 months? Is that what you just said?
    Mr. Brown. Well, cumulative over the whole time. I'm 
talking ----
    Mr. Cummings. What?
    Mr. Brown. Cumulative--the cumulative impact of that.
    Mr. Cummings. All right.
    Mr. Brown. Of having to clear the work area of all the 
workers and then bring them back on once we were allowed to 
bring the workers back on the worksite.
    Mr. Cummings. Had that been anticipated?
    Mr. Brown. No.
    Mr. Cummings. Okay.
    Mr. Brown. I don't think we understood that we were going 
to have to clear the work area as the head of government moved 
around.
    Mr. Cummings. So what were some of the other factors that 
led to the delays and increased costs?
    Mr. Brown. Probably the biggest factor was that when we 
went to start the project, the area that we were going to work 
in was in the control of the Afghan National Army. It took 
about 14 months for us actually secure it to get access to that 
area. So from the beginning the project was delayed because we 
could not get access to there to begin to do the construction 
work. That was the largest single delay that we had.
    I mentioned the security issues in there. The other one we 
talked a little bit earlier. When we were into the project and 
we decided that, amongst all of the folks, including the in-
country leadership, that we should convert this from a cost 
plus contract to a fixed price contract, we actually stopped. 
That took about 7 months to do that conversion while we did 
that. So that added to that also. So between the three things 
I've mentioned, security, the ability to get access to the 
property, and then the conversion from a cost-plus contract to 
a fixed price contract, that--that equated to about 27 months.
    Mr. Cummings. So are you confident in the structural 
integrity of the building and its ability to withstand 
earthquake and terrorist attacks?
    Mr. Brown. Yes, we are. I will say that with respect to the 
concerns that were raised, we appreciate that we--we did 
provide information to CSTC-A to address the concerns. With 
respect to the seismic joints, we--we've gone back and that was 
part of our assessment to make sure that those were installed 
correctly, that those were designed correctly. Again, we use 
U.S. standards for that, so these are built to U.S. code so 
that we are assured that we are building something that is 
seismically sound, and they are. And so we are confident of 
that.
    We are in large part, not only through our assessment 
because just in this last October there was a 7.5 earthquake in 
the general area. There was inspections done after the 
earthquake. That building held up very, very well. Only minor 
superficial damage was done to it. So we believe that the 
building is constructed properly and it has been turned over 
and is in use, as was mentioned earlier today.
    Mr. Cummings. Ms. Abizaid, this facility has cutting-edge 
communications security equipment, including security cameras, 
key cards access, computers, and x-ray scanners. How will these 
features improve operations and security for the Afghanistan 
National Defense and Security Forces?
    Ms. Abizaid. To the extent that those features make, one, 
the ministry more secure, and two, the ministry able to connect 
more effectively with the units outside of Kabul, we think that 
those are important features of any kind of headquarters 
element, including the Pentagon. So we do think that it is 
important to have a fully functioning building for the Ministry 
of Defense so we can have the kind of leadership over its 
security forces that are important for their effective 
function.
    Mr. Cummings. Do you believe investing in projects like the 
new headquarters furthers our national security goals, and if 
so, explain that.
    Ms. Abizaid. Sir, yes, I do. The need for the Afghan 
Ministry of Defense to have a secure building in a secure 
location and be able to effectively communicate with their 
forces has been an important feature for just making sure that 
that minister functions and increasingly on its own so that 
we're not taking the slack and doing the work for them 
ourselves, which has features of enabling dependence as opposed 
to enabling independence. So I do think it's an important part 
of what we do.
    I think to do it well is very important. I know that there 
were some--the cost overruns are a feature of the security 
environment unfortunately in Afghanistan. They're also feature 
of bad contracting on the--in the early part of the contracts, 
maybe some underestimates about how much this was going to 
cost, and so while I think these investments are important, 
it's also important that we do them right.
    Mr. Cummings. Thank you very much. I yield back.
    Chairman Chaffetz. I now recognize myself here.
    Mr. Sopko, tell me about the Kabul Bank. I had asked you 
previously about the Kabul Bank. Is there any sort of update on 
that?
    Mr. Sopko. Yes, there is. And I know, Mr. Chairman, you've 
been very interested in this, and I know the ranking member has 
been very interested, and I think it's because of your interest 
that I actually have some good news to report. We have been 
working with the new Unity Government, the National Unity 
Government, and on my recent trip to Afghanistan on February 22 
I met with President Ghani about the Kabul Bank and other 
matters.
    The President indicated he wanted SIGAR to work with his 
new task force that he is creating to find the assets. And so 
he is giving us complete access to all relevant bank and 
financial records, as well as other individuals. So this is a 
tremendous breakthrough. It should have been done years ago, 
but President Ghani has focused on this, so we are very happy 
about that.
    Mr. Cummings. Great.
    Mr. Sopko. We have no guarantee we're going to get the 
money. It should have been done, like I say, 5 years ago, but 
the President is very eager for us to help him and recover the 
assets for the Afghan people.
    Chairman Chaffetz. Very good. Thank you.
    Somebody from the Department of Defense, what is the Task 
Force for Business and Stability Operations? What does that do 
and why is the Department of Defense doing it?
    Ms. Abizaid. We are not any more, sir. The Task Force for 
Stability--for Business and Stability Operations closed its 
doors in--at the end of 2014, and we are no longer engaged in 
the kind of business that TFBSO did.
    The reason TFBSO was stood up was as part of our 
counterinsurgency mission. Commanders in the field felt that 
there was a high demand for DOD to be able to invest in 
economic development in a way that would complement those 
efforts of State and USAID.
    Chairman Chaffetz. So ----
    Ms. Abizaid. And that was the theory behind the case, sir.
    Chairman Chaffetz. Look, I believe in our United States 
military. I think that they can do anything if they are given 
the mission and the tools to do it. But I worry that we ask the 
Department of Defense to go in and do things that is not core 
to their mission. We are great war fighters at the Department 
of Defense, but to go in and start doing business operations is 
maybe a bridge too far.
    Of all the projects you have on your plate, of all the 
projects moving forward, what is not related to military or the 
building up of security forces in Afghanistan?
    Ms. Abizaid. So with the closing of TFBSO, I think that the 
projects that I'm most aware of are those that are associated 
with the Afghanistan Infrastructure Fund, and those are about 
infrastructure projects associated with the electric grid and 
completing power transmission lines, for instance. Those are 
projects we undertook starting several years ago, and we're 
just trying to finish out those projects. And they're projects 
that we do in coordination with USAID given the security 
environment and the expertise that the Corps of Engineers 
brings to the table.
    I think, sir, also just one addendum. We are also doing--
continuing to do work on the Kajaki Dam, which is also a core 
competency of the Corps of Engineers.
    Chairman Chaffetz. Do you have a list of everything that 
you have built? I understand that the CERP funds are very 
difficult at that level, but do you have a list of things that 
you have actually built?
    Ms. Abizaid. We do have a list, sir. I can get that for 
you.
    Chairman Chaffetz. Mr. Sopko, do you have that list? No. 
And what we're talking about, I think, is the CERP. CERP is the 
big--is the black hole. We built a lot, and it's not just 
digging ditches. We built schools, clinics, and a bunch of 
other things, and we don't really have that central database. 
We don't have a central database. Nobody does of all the work 
that was done in Afghanistan. GAO has found that, and we have 
repeatedly found that, and we have made recommendations there 
should be a central database of all reconstruction projects.
    And I think my colleague even agrees. With the exception of 
CERP, they have a pretty good idea, but the CERP funds, we have 
no idea what we have built.
    Chairman Chaffetz. How much money did we spend there?
    Mr. Sopko. Billions, I think. I can get the exact number.
    Chairman Chaffetz. Okay.
    Mr. Sopko. CERP was a rather large program.
    Ms. Abizaid. CERP has changed over time. It looks like it's 
at $2.2 billion over the course of the campaign, which is much 
different than ASIF or the other funds.
    Chairman Chaffetz. You made an assertion that we have--you 
said, ``we have increased oversight.'' Really? How do you make 
that case because it doesn't seem like that is the case. What 
is the metric you used to come to that conclusion that you have 
increased oversight?
    Ms. Abizaid. Well, sir, I talked earlier about some of the 
lessons learned that we have undertaken to increase the kind of 
oversight that we have provided for various projects. I think 
in the field, given the volume of projects that we're 
undertaking, we have better oversight and we have a more 
competent Afghan partner who's grown their capability over 
several years.
    I don't know if my colleagues from the engineering world 
would be able to tell in more specifics how they have done that 
with specific projects.
    Mr. Strickley. Yes, sir. So for the construction projects, 
they're--when we arrived there in 2002, there was almost no 
construction industry in Afghanistan in the sense that we would 
think about construction contracting, and there was very little 
engineering--construction engineering capability.
    Chairman Chaffetz. Let me ask you a simple question. Do you 
have a picture of every project that we have ever done?
    Mr. Strickley. I suspect the Corps of Engineers has a 
picture of every project we've built, yes.
    Chairman Chaffetz. That is one thing I have been asking for 
for years, more, quite frankly, from the State Department. It 
just seems that in today's digital world we can take a picture. 
That is at least some oversight that we actually built 
something.
    The concern is the drawdown of the forces and the ability 
to even get outside the walls is greatly diminished. Mr. Sopko, 
perhaps you can give perspective here as I wrap up this line of 
questioning.
    Mr. Sopko. It's harder to do oversight now. We have the 
largest oversight presence of any of the IGs or the GAO, but 
it's a security situation we're dealing with.
    Now, we haven't just given up and walked away. We have come 
up with some innovative techniques, and one of them is using a 
number of Afghan civilian organizations and vetting them to get 
out and take a look at schools and clinics, and then we double-
check that. And that's how we're getting out to do it. But it's 
extremely difficult because of the security situation.
    Chairman Chaffetz. All right. Let's now recognize Mr. 
Carter of Georgia for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Ms. Abizaid--I am sorry--the report that was released today 
by SIGAR points to many issues about contractor performance in 
Afghanistan. And would you agree that the poor contractor 
performance has hindered the Department of Defense's rebuilding 
efforts?
    Ms. Abizaid. In some ways, yes, it has. Again, I would just 
say that Mr. Sopko's report details 44 projects, which is among 
over 1,000 that we've actually undertaken in the country.
    Mr. Carter. Okay. Let me ask you something. On these 
projects, are there any provisions in your reconstruction 
contracts that require the contractor to complete the project 
before they are paid?
    Ms. Abizaid. Let me turn to my colleague ----
    Mr. Carter. Sure. Sure.
    Ms. Abizaid.--in engineering.
    Mr. Strickley. Yes. Yes, sir. We use the exact same Federal 
Acquisition Regulations to do contracting in Afghanistan that 
we would use in the United States. So they are paid--the 
contractors are paid based on placement. Every month, every 2 
months they send us an invoice, we confirm they've done the 
work, and if they have, then we pay them ----
    Mr. Carter. So it is not the ----
    Mr. Strickley.--for the work performed.
    Mr. Carter.--complete project, it is just that portion of 
the project that you are paying for?
    Mr. Strickley. Yes. Yes, sir. We pay them progress. As they 
make progress, we pay them, same as we would here ----
    Mr. Carter. Do you ever hold back any in anticipation of, 
you know, you have got to complete this project, not this 
portion of the project but this project has got to be completed 
before you get the last check?
    Mr. Strickley. Yes, sir, absolutely. And so when a 
contractor falls behind schedule, the FAR, the Federal 
Acquisition Regulation, allows us to withhold up to 10 percent 
of the value of the project until they either catch up their 
schedule or they finish.
    But, as I said earlier, many of these firms that we're 
contracting with in Afghanistan are very small businesses. 
We're trying to build an industry there. If we withhold much of 
a payment from them, they will simply fail as a business. They 
do not--they don't have the capital to carry the projects, and 
when they fall behind, they won't pay their subcontractors, and 
then we have security problems on the jobsite if the 
subcontractors ----
    Mr. Carter. And I am understanding of that and I am 
appreciative of that, but at the same time, this is interfering 
with the Department of Defense's rebuilding efforts. I mean, 
that has been acknowledged. We have got to do something. I 
mean, you know, we are getting reports that we are continuing 
to contract with firms that aren't finishing the work.
    Mr. Strickley. The firms in Afghanistan that we do business 
with have gotten better and better over the years. We've 
literally had hundreds of Afghan construction firms perform 
satisfactorily on our projects. We've completed about 1,200 
projects for DOD in Afghanistan, and we've literally done 
business with hundreds of small Afghan firms. So we've created 
a credible construction capacity there, and they are performing 
quite well.
    Security obviously is not within the control of the 
construction contractors, so as workers are driven off the site 
or if we can't get material to the site, there's little we can 
do about that.
    Mr. Carter. Okay. Mr. Sopko, let me ask you. Let me ask you 
your opinion of the oversight that the Department of Defense 
does on these projects. Do you think that it is adequate?
    Mr. Sopko. No. No, it is not. Part of it is because of 
security. It's not adequate. We have seen time and time again, 
and even on recent projects, somebody can't get out and check 
and see if the project was finished, you know, and it was 
completed in a proper manner.
    Mr. Carter. Yet they are continuing to pay them?
    Mr. Sopko. Of course. If no one goes out and kicks the 
tires, you make the payment. So, no. And again ----
    Mr. Carter. Okay. You all have got me confused here. Okay. 
I have got somebody telling me, yes, we were doing good and we 
are doing better and then I got somebody else telling me, no --
--
    Mr. Strickley. Sir, we employ--right now, we have 30--I 
think we have 39 projects still under construction in 
Afghanistan. We employ about 200 Afghan engineers who are 
capable of visiting all of those project sites and do on a 
regular basis.
    Mr. Carter. Okay. I am sorry to interrupt you but I want to 
get back to Mr. Sopko. I have got a report that the Ministry of 
Defense building took 5 years, 5--1, 2, 3, 4, 5 years times the 
original budget to complete, yet it is still not fully 
complete. Is that true? Mr. Sopko, is that ----
    Mr. Sopko. Well, yes, I think the construction is completed 
as a--when we ended it, I don't think it was fully occupied. I 
think it's finished but it's not fully occupied.
    Mr. Carter. Five years?
    Ms. Abizaid. It's now complete and fully occupied. Mr. 
Brown's organization took care of that construction.
    Mr. Brown. It was complete last summer and turned over to 
the CSTC-A and has been ----
    Mr. Carter. But I am correct, 5 years?
    Mr. Brown. Approximately 5 years, yes. And we kind of went 
through ----
    Mr. Carter. Is that acceptable?
    Mr. Brown. No, it is not.
    Mr. Carter. Then what can we do to make it--what can we do 
to improve? I mean--and out of all due respect, I don't need to 
hear just, oh, it is security concerns.
    Mr. Sopko. Mr. Chairman, this is--I mean, Congressman, this 
is in the most secure location in Afghanistan. This isn't 
downtown Kabul. You can see the building from our embassy. This 
is a thing that was done recently. Now, we have MOI. You can 
see that from the airport.
    And so if the security situation is bad, and I recognize 
there are security problems, if they can't do it under time and 
on budget there, what do you expect if they're doing something 
in Kajaki where no American can get to? And that was one of the 
things that they're still working on, the Kajaki Dam. We have 
been trying to finish the Kajaki Dam since 1950. It is the 
longest public works projects in the history of the United 
States. It makes the Big Dig look like a real short dig.
    Now, we are putting money and money in it. I heard somebody 
refer to dams the--use decided to go on budget because we 
couldn't do the product--project ourselves. So we gave it to 
the Afghans to do it. But there's no Americans checking to see 
if they're doing it. Last time we heard, the turbine parts had 
been sitting out there for years and been rusting in a bone 
yard. They don't fit. They don't work together. But I was 
assured by USAID it's going to be completed in my lifetime.
    Mr. Carter. You know, maybe what we ought to do is just get 
some helicopters and get money and just, you know, drop it over 
the country. I mean, seriously. This is totally unacceptable.
    Mr. Sopko. Kajaki Dam is now totally surrounded by the 
insurgents, and even when we finish Kajaki Dam, sir, most of 
the--I wouldn't say most, probably a good percentage of 
electricity is going to be diverted to the insurgents. So we 
are basically paying for a power plant for the insurgents.
    Mr. Carter. Mr. Sopko, thank you, but I will be quite 
honest with you, I could have gone all day without hearing 
this. This is really disappointing.
    Thank you, Mr. Chairman. I appreciate your indulgence.
    Chairman Chaffetz. Thank you. And it is about time we get 
USAID and the State Department back up here because so much of 
the waste, fraud, the abuse is found within their 
organizations.
    Mr. Carter. Yes. Absolutely.
    Chairman Chaffetz. I would now recognize the gentleman from 
Florida, Mr. Mica.
    Mr. Mica. Well, I don't mean to belabor the point, Mr. 
Sopko, but I have the transcript from 4/29/15, and we had you 
in and I was asking at that time what the amount was you had 
cited they couldn't absorb or--and I said steal, but here is my 
words there. I believe the amount was $20 billion in 
Afghanistan money that was backed up. They had neither the 
ability or capacity to spend or steal. I think it was--was that 
an accurate statement? I was asking that.
    Mr. Sopko, I think you are correct. It is about--actually 
it is more than $20 billion right now that has been 
appropriated, authorized, but not yet spent. And I guess in a 
subcommittee hearing on April 3, 2014, I had asked you for 
information on a list of Afghan nationals who you found were 
held criminally accountable for some of the theft, and you 
provided a response to me at that point.
    You also said as of March 31, 2014, $18 billion remained to 
be spent. It was either backed up and couldn't be absorbed or 
if you want to attribute the stolen to me, I will say that. 
What is the amount now, would you estimate?
    Mr. Sopko. I think that it's down to 11--approximately $11 
billion.
    Mr. Mica. But they still can't absorb or, I believe, they 
can't absorb that money. They don't have the capacity to absorb 
it. So the good news is some of that has been cut off. We are 
not giving them more.
    Then, I went into prosecutions. Did DOD or State go after 
money that was defrauded or criminally expended? Are there any 
instances? I mean, there's a lot of fraud, waste, and abuse 
going on, but we could go after fraud and criminal action, and 
that has been cited.
    Mr. Sopko. Well, DOD doesn't actually prosecute cases ----
    Mr. Mica. Okay. But have there ----
    Mr. Sopko.--nor do we--we ----
    Ms. Abizaid. Yes, sir, we have.
    Mr. Sopko.--investigate them and then turn them over to --
--
    Mr. Mica. Can you give us cases?
    Ms. Abizaid. There are examples of us holding to account 
those that we have evidence of fraud, waste, and abuse.
    Mr. Mica. But I want to know ----
    Ms. Abizaid. I think--and that's been enabled by Mr. 
Sopko's ----
    Mr. Mica.--how many criminally have been held accountable 
in United States courts? And then you outline some of the 
difficulty in prosecuting within Afghan courts. Can anyone give 
me a number, 10, 20, 30? I can tell you over 140 in New York on 
the Sandy project.
    Ms. Abizaid. I can get that for the record, sir.
    Mr. Mica. Okay. I want that in the record and the response. 
I follow up on these things.
    Mr. Mica. Okay. Then, you went on to cite in your letter to 
me that one of the difficulties was prosecuting in Afghan 
courts, right? And you actually got one person in to testify, I 
guess an American law enforcement person in a case there. But 
at that time, 2014, we didn't have an extradition treaty. The 
United States has extradition treaties with 110 countries. Who 
negotiates the extradition treaty, the Secretary of State?
    Mr. Sopko. I believe it's ----
    Ms. Abizaid. The State Department.
    Mr. Sopko.--State Department.
    Mr. Mica. So we never--do we have one now in place?
    Mr. Sopko. No.
    Mr. Mica. We still do not have an extradition treaty so we 
can't go after them there.
    Then, there was another handicap you cited, the Afghan 
First Initiative. U.S. contractors were restricted so they are 
giving the stuff to Afghan contractors who we really couldn't 
monitor or go after criminally. Is that still in place, this 
Afghan First requirement?
    Mr. Sopko. I believe so. I mean ----
    Mr. Mica. Do you know?
    Ms. Abizaid. No, I'm not--I do not think it is still in 
place. The Department ----
    Mr. Mica. Well, that would be good to know because we have 
no recourse.
    Any percentage of what you think has been wasteful or--you 
don't like me to use stolen, but ----
    Mr. Sopko. Again, I ----
    Mr. Mica.--fraud?
    Mr. Sopko. Billions, sir ----
    Mr. Mica. I mean, $10 billion ----
    Mr. Sopko.--billions, just billions.
    Mr. Mica. Billions and--yes.
    Mr. Sopko. Yes.
    Mr. Mica. And we have not been able to go after them or, if 
we have, it has been, well, limited both in Afghan courts or 
U.S. courts.
    Mr. Sopko. Well, Mr. Mica, can I just add ----
    Mr. Mica. Yes.
    Mr. Sopko.--we have--SIGAR has worked very closely with the 
National Unity Government and the President and his people.
    Mr. Mica. And you got one person to ----
    Mr. Sopko. Well, since then.
    Mr. Mica. Yes.
    Mr. Sopko. Since then, we actually uncovered a scheme to 
defraud a billion-dollar contract that was going to be issued 
by the Afghan Government. It was U.S. money. And we brought 
that to the President's attention and he did something. He 
fired generals, he opened an investigation on it. So this is --
--
    Mr. Mica. And ----
    Mr. Sopko.--the difference with this new government versus 
the old government.
    Mr. Mica. Okay. Well, again, an extradition treaty would 
probably help, too. That sounds like there is still going to be 
spending money. Maybe we could request that or Secretary of 
State to do that.
    Finally, what does it look like as total assets left behind 
value? Since we don't have an inventory of the projects, which 
is astounding, is there any guesstimate as to our--I know we 
are leaving billions behind, but is it--and we spent $110--I 
would have another question, Mr. Chairman, if you--and then I 
am very concerned about in Iraq, you know, we spent a billion, 
gazillion dollars training these guys and then they cut and 
run. Has anyone done an evaluation of our programs there? And 
do they have the ability either as a police or defense force to 
hold things together?
    Ms. Abizaid. Sir, I would say that the Afghan National 
Security Forces are actually one of the most nationalist 
institutions in Afghanistan, and we've actually seen them fight 
very well over the last year ----
    Mr. Mica. Well ----
    Ms. Abizaid.--obviously with some challenges.
    Mr. Mica. But that is not a good answer because I am the 
best Representative in the 7th Congressional District. I am the 
only one.
    [Laughter.]
    Ms. Abizaid. I understand, sir. I would say that what we 
have seen is a strong ANDSF ----
    Mr. Mica. Yes, but ----
    Ms. Abizaid.--and a strong commitment to defending their 
country. How are they compared to Iraqi security forces is not 
something that I have an answer for you.
    Mr. Mica. Okay. Well, again, and then the assets, the 
amount, maybe somebody could calculate what we are leaving 
behind. I know some things, it costs you more to take the asset 
out, but there are some infrastructure that you can't remove 
that we are leaving behind that they can't maintain or where 
they have taken control of where we are spending more money to 
renovate it that we don't need to spend.
    Ms. Abizaid. Sir, we are engaged in a dialogue with the 
Afghans about excess infrastructure that we do not think that 
they need and they think--we think that they should divest of.
    Mr. Mica. For the record ----
    Ms. Abizaid. And we will ----
    Mr. Mica.--staff can get that ----
    Ms. Abizaid. We will give you a list of ----
    Mr. Mica.--in the record, yes.
    Ms. Abizaid.--that information for the record, sir.
    Mr. Mica. And then maybe we will have an inventory, too.
    Mr. Sopko. Congressman ----
    Mr. Mica. Don't feel bad, though, because we don't have 
inventory of the public assets, the property that we have in 
our own agencies in the United States, let alone some place 
that is under attack.
    Mr. Sopko. Congressman, just so you know, this week my 
Special Projects Unit just issued a report that partially 
answers your question. It discussed that between January 2010 
and October 2015 DOD transferred or closed 616 of 715 bases in 
Afghanistan, and the value the DOD put on it was $851 million, 
and that consists of 11,900 ----
    Mr. Mica. And that is bases so ----
    Mr. Sopko. Bases and excess property ----
    Mr. Mica. We have got lots of USAID that--tens of billions 
----
    Mr. Sopko. Yes.
    Mr. Mica.--going in to a country that only has a $5 billion 
annual budget.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. Thank you.
    I now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Just a few questions. Speaking of training, 
Ms. Abizaid, some of the construction projects have been 
constructed as training facilities, is that right?
    Ms. Abizaid. That's correct.
    Mr. Cummings. And they were to house the Afghan National 
Police and the Afghan National Army. Are the Afghan soldiers 
and police being trained in the facilities that were 
constructed with U.S. dollars?
    Ms. Abizaid. That's right, sir, yes.
    Mr. Cummings. I mean, and how is that going? Is it adequate 
for what they are trying to accomplish?
    Ms. Abizaid. The training ----
    Mr. Cummings. Do you know?
    Ms. Abizaid. The training effort that's ongoing is 
extensive. It is one that happens in the midst of a 
counterinsurgency fight. But my understanding is that, yes, the 
training that they're--that is ongoing, some of which we advise 
but don't do ourselves because Afghans are now doing it for 
themselves is going generally well.
    Mr. Cummings. Now, Mr. Sopko, one of the facilities that 
you inspected was the Qala-i-Muslim medical clinic in Kabul 
Province?
    Mr. Sopko. That's correct.
    Mr. Cummings. Which was built with funds from the 
Commander's Emergency Response Program. Your report concluded 
that the clinic was serving the community well, is that 
correct?
    Mr. Sopko. Yes.
    Mr. Cummings. And why did you say that?
    Mr. Sopko. Well, it had met its contract requirement to 
build it, it was well-built, it was being used as intended. So 
it was a success story.
    Mr. Cummings. So, in fact, you found that in 2013 clinic 
records that showed over 1,500 outpatient consultations, 63 
prenatal patients, and 63 newborn deliveries since the clinic 
opened in 2011, is that right?
    Mr. Sopko. I believe so, sir.
    Mr. Cummings. And you also found that the Ministry of 
Public health was sustaining the facility and inspectors noted 
clean floors, well-kept bedding, working heating and electrical 
systems and a well-stocked pharmacy. Would you call this a 
success story?
    Mr. Sopko. Yes, it is a success.
    Mr. Cummings. And that is one of the exceptions, I take it?
    Mr. Sopko. Yes.
    Mr. Cummings. Just listening to today.
    Mr. Sopko. Yes.
    Ms. Abizaid. Sir, I would disagree a little bit with it 
being one of the exceptions, that a success is an exception to 
the rule. It might be an exception in the world of Mr. Sopko's 
44 projects that he reviewed, but we've undertaken thousands 
and we do have other successes. And we're happy to answer Mr. 
Sopko's questions about those.
    Mr. Cummings. Are there are a number of medical facilities?
    Ms. Abizaid. We have constructed some clinics and some 
medical facilities over the years, usually through CERP funds, 
but that is more now the business of USAID and the State 
Department.
    Mr. Cummings. Well, going back to this particular clinic, I 
think I would conclude that it's a success story. According to 
USAID, the percentage of women in Afghanistan receiving 
prenatal care has increased from 16 percent in 2002 to 60 
percent in 2010, and this has coincided with an infant 
mortality rate that has decreased by 53 percent. That is 
significant.
    Ms. Abizaid. That's right, sir. Life expectancy and 
generally quality of life in Afghanistan has improved quite a 
bit over the last 14 years.
    Mr. Cummings. And you would attribute that to our efforts?
    Ms. Abizaid. To U.S. Government and coalition efforts, yes, 
I would.
    Mr. Cummings. And why do you say that?
    Ms. Abizaid. The amount of enabling capacity we've built 
for the Afghans, the amount of skills that we have developed 
within the Afghan workforce has been significant in terms of 
increasing literacy rates, increasing the amount of women that 
are in the workforce, increasing the amount of girls that go to 
school, education is much better, Afghan security forces exist 
in a way that they didn't previously so they can provide for 
the security of the Afghan people. So in large part, 
Afghanistan is a much better country than it was when under 
Taliban rule and when we got there originally.
    Mr. Cummings. So do you know what the life expectancy was? 
Do you have any comparison numbers?
    Ms. Abizaid. I--comparison numbers exist. I don't have them 
with me, sir.
    Mr. Cummings. Thank you very much.
    Chairman Chaffetz. Just a couple of questions here as we 
wrap up.
    Ms. Abizaid, if the SIGAR is asking for the top 10 
projects, is that something you can get for him?
    Ms. Abizaid. Yes, it is.
    Chairman Chaffetz. When? By when? When is a good reasonable 
time to get him that?
    Ms. Abizaid. We will get it to him in a matter of a month.
    Chairman Chaffetz. All right. Fair enough.
    You mentioned biometric IDs. Explain to me how you are 
doing biometric IDs.
    Ms. Abizaid. So we have instituted a biometric ID card 
system for the Ministry of Defense and the Afghan National 
Army. It'll likely be extended to the Afghan National Police. 
But this is an ID card much like DOD civilians, DOD military 
have that have critical biodata about individual soldiers and 
is what is going to be a key piece of requiring that we pay who 
has the ID and, you know, increases the accountability of our 
paying personnel system.
    Chairman Chaffetz. You can go ahead and leave that 
microphone on because I am going to keep asking you a few more 
questions. When you say biometric information, what would that 
include?
    Ms. Abizaid. So it includes a number of things. I mean, I 
think date of birth, you know, ethnicity. I think that there is 
a particular--like Social Security number that is associated 
with each--the details of the biometric ID card I can certainly 
get to you ----
    Chairman Chaffetz. Will it include a picture?
    Ms. Abizaid. It does include a picture, sir.
    Chairman Chaffetz. Do you take fingerprints? I mean ----
    Ms. Abizaid. I'm not ----
    Chairman Chaffetz.--our own government here, I mean, the 
FAA can't seem to do this so I am just fascinated that you 
think you can actually execute this. It is not like they can go 
to a local Kinko's and get a picture taken and then go get a 
real ID.
    Ms. Abizaid. Sir, I think they will be issued as part of 
the in-processing and the recruitment and training aspect of 
when--of the intake ----
    Chairman Chaffetz. But don't most people get paid through a 
hawala system? I mean they are not going to a Wells Fargo bank 
or Bank of America to go cash their checks.
    Ms. Abizaid. That's a system that we're changing, sir. I 
mean, there was a culture of trusted agents in far provinces 
where banks were not available, where Afghan soldiers would 
have to rely on them and often get skimped in terms of their 
monthly pay ----
    Chairman Chaffetz. Where ----
    Ms. Abizaid.--but we've actually moved to a mobile money 
system, which has had significant success and it's--it connects 
soldiers to actual bank accounts, and they can see on their 
phone what their balance is and how much they have--they are 
due for ----
    Chairman Chaffetz. Okay. We are fascinated with the--and, 
Mr. Sopko, I hope you can help follow up on this because I 
think that is laudable but I think it is--I can't imagine that 
you can actually pull that off. I think that is probably the 
standard we should get to, but we have a hard time executing 
that here in the United States with an awful lot of 
infrastructure. In a place like Afghanistan I have a hard time 
believing that they can actually execute on that. But more luck 
to you but I don't know how much it is going to cost. I mean, 
we are dealing right now with the homeland security that has a 
very difficult time with this at best. And, Mr. Sopko, if you 
can follow up on that, that would be great.
    Mr. Sopko. We will. We've monitored it. And actually, in 
support of the assistant secretary, it is an improvement. We're 
at least having unique identity cards ----
    Chairman Chaffetz. Great.
    Mr. Sopko.--but, you know, this is 15 years into this we're 
finally getting that. And we're asking for people, when they 
leave, to give their identity cards back, and we hadn't been 
doing that. We've issued a number of reports on it, but we are 
glad to see CSTC-A is moving out on that.
    Chairman Chaffetz. Great.
    Mr. Sopko. It's an improvement.
    Chairman Chaffetz. Very good. Mr. Sopko, we have talked 
about this in the past, but the $100 billion plus, how much do 
you actually think got to Afghanistan? How much has been 
siphoned off? How much can we actually point to and verify?
    Mr. Sopko. Mr. Chairman, as before, I'm in an awkward spot. 
I can't give you an answer. All I know is billions have been 
wasted or stolen. But I can't tell you the exact number. We 
don't even have a number of all the projects and then know 
where they're located, so it's very difficult for us to do 
that. No one can.
    Chairman Chaffetz. How much--and tell me about--you have 
cited, Ms. Abizaid, about the fixed wing. Explain that project 
and why you think it is a success. And how much did we spend on 
it?
    Ms. Abizaid. So we are in the process of delivering fixed 
wing platforms for close air support for the Afghans to have as 
an organic capability. They are--they have four A-29s, Super 
Tucanos they're called, and we will eventually build to 20. 
This has been a critical piece in enabling the Afghans to 
independently fight the counterinsurgency fight and one where 
the burden on U.S.--the U.S. assets has been--will be 
significantly decreased as they increase their capacity for 
their own close air support missions and aerial fires missions.
    Chairman Chaffetz. All right. So I want to try to tackle 
this one again. How many people do we have working for the 
United States in Afghanistan?
    Ms. Abizaid. So, sir, my crack staff did get the answers 
for you. So we will confirm these for the record, but what we 
could find out in the time allotted, we have 9,800 troops in 
Afghanistan, 11,542 U.S. contractors. There are more third-
country nationals and Afghan contractors that the United States 
is spending money on.
    Chairman Chaffetz. And that's just for the Department of 
Defense?
    Ms. Abizaid. This is for the Department of Defense, sir. I 
don't have ----
    Chairman Chaffetz. Right.
    Ms. Abizaid.--other numbers. And then in terms of civilian 
manning, we're talking about 290 now but I think that the 
requirement for civilian manning will likely increase as our 
military footprint decreases.
    Chairman Chaffetz. And, Mr. Sopko, when you cite nearly 
40,000 contractors, is that in addition to her 11,000 or does 
that include--when you say 40,000, it includes the Department 
of Defense?
    Mr. Sopko. That would include. That would include.
    Chairman Chaffetz. So we have just less than 10,000 troops. 
In addition to that, we have roughly 40,000 contractors, 
correct, for ----
    Mr. Sopko. That's our best estimate.
    Chairman Chaffetz.--a grand total of just less than 50,000 
people, correct?
    Ms. Abizaid. In terms of U.S. citizens or contractors that 
work for the United States?
    Mr. Sopko. Yes ----
    Ms. Abizaid. It's a different number, sir.
    Chairman Chaffetz. Yes. We are paying close to 50,000 
people to be there, correct? Between contractors and troops, 
some of them are Americans, some of them are not Americans, it 
is roughly 50,000 people ----
    Ms. Abizaid. I think that's a good rough ----
    Chairman Chaffetz.--to keep our mission moving?
    Ms. Abizaid.--estimate, sir.
    Chairman Chaffetz. Okay. All right. Listen, thank you so 
much. There are a lot of good people in very difficult, 
dangerous situations. They are away from their family. I have 
been there several times. I need to go back again. But it is a 
difficult mission, but it is also a vital mission, and I cannot 
thank the men and women enough who are putting their lives on 
the line to do this.
    So we thank the four of you for your dedication and your 
patriotism and your commitment to the country. This is a 
valuable exercise. A lot of work goes into these reports and 
the analysis, and I don't want to do think that it just goes up 
on some shelf. It is very, very helpful as we try to figure out 
from our component or our vantage point, you know, what it is 
we should do or where we should go next.
    So thank you again very much for that, and the committee 
stands adjourned.
    [Whereupon, at 11:16 a.m., the committee was adjourned.]









                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              
   
                                 [all]
</pre></body></html>
